<html>
<title> - WEAK STATES IN AFRICA: U.S. POLICY IN LIBERIA</title>
<body><pre>[Senate Hearing 107-676]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-676
 
              WEAK STATES IN AFRICA: U.S. POLICY IN LIBERIA

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 11, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate








                       U. S. GOVERNMENT PRINTING OFFICE
81-759                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                   Antony J. Blinken, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                 ------                                

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                RUSSELL D. FEINGOLD, Wisconsin, Chairman
CHRISTOPHER J. DODD, Connecticut     BILL FRIST, Tennessee
BARBARA BOXER, California            SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         GORDON H. SMITH, Oregon
    Virginia

                                  (ii)

  




                            C O N T E N T S

                              ----------                              
                                                                   Page

Amnesty International USA, statement submitted for the record....    17
Anderson, Ms. Rory E., African policy specialist, World Vision 
  U.S., Washington, DC...........................................    29
    Prepared statement...........................................    32
Frist, Hon. Bill, U.S. Senator from Tennessee, prepared statement    10
Kansteiner, Hon. Walter, Assistant Secretary of State for African 
  Affairs, Department of State, Washington, DC...................     2
    Prepared statement...........................................     4
Nowrojee, Ms. Binaifer, senior researcher, Human Rights Watch 
  African Division, New York, NY.................................    19
    Prepared statement...........................................    22
Sannoh, Benedict F., counsellor, Reagan-Fascell Democracy Fellow, 
  National Endowment for Democracy, Washington, DC...............    37
    Prepared statement...........................................    42

                                 (iii)






             WEAK STATES IN AFRICA: U.S. POLICY IN LIBERIA

                              ----------                              


                         TUESDAY, JUNE 11, 2002

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Russell D. 
Feingold (chairman of the subcommittee), presiding.
    Present: Senators Feingold and Frist.
    Senator Feingold. I call this hearing to order. I want to 
thank all of the witnesses for being here today as the 
Subcommittee on African Affairs convenes the third in a series 
of hearings focused on weak states in Africa. This series is an 
attempt to identify some of the characteristics of Africa's 
weakest states that make the region attractive to terrorists 
and other international criminals, focusing on issues such as 
piracy, illicit air transport networks and trafficking in arms, 
gemstones, and sometimes people. The subcommittee hopes to 
identify long-term policy options for changing the context in 
these states such that they are no longer so weak and so 
appealing to criminal opportunists.
    Earlier hearings already examined Somalia and the 
Democratic Republic of Congo. Today we turn to the case of 
Liberia. So often we discuss Liberia only in the context of 
what is happening in Sierra Leone or Guinea. Those discussions 
of Liberia's role in the destabilization of the region are 
certainly appropriate, but they rarely create a space for 
considering the conditions of the Liberian people themselves, 
or the state of Liberian institutions, or the extent to which 
those institutions have been corrupted into private criminal 
networks aimed at accumulating wealth for those in power. I 
believe that that is an equally important discussion, and the 
two are by no means mutually exclusive.
    The United States and the international community have 
invested tremendous resources in bringing peace to Sierra 
Leone. The formal end of the war and recent elections are 
positive signs, but chaos in neighboring Liberia is just the 
opposite. Consider this--citizens of Sierra Leone are coming 
home from the countries in which they sought refuge, Liberians 
are fleeing into Sierra Leone--over 20,000 of them.
    For all these reasons--because our post September 11 
understanding of security threats must include international 
criminal networks that operate in Africa, because allowing 
Liberia to deteriorate further without taking action is to 
ignore a major human tragedy, and because the success or 
failure of a major international intervention in the region 
hangs in the balance--it makes sense to focus on Liberia today.
    Let me be very clear at the outset. I think that the 
current President of Liberia is a war criminal, and I hope to 
see him held accountable for his actions in a court of law. I 
strongly support our continued efforts to isolate and pressure 
the Taylor regime. I think there is nearly universal support 
for this policy within both parties and both Chambers of 
Congress. But I also recognize that pressuring Taylor is not a 
complete policy toward this troubled and volatile country. We 
must ask ourselves what will Liberia look like in 10 years, and 
what will that mean for the Liberian people, for the West 
African region, and for international criminal networks? What 
steps can be taken today to influence that outcome?
    I certainly will turn to the ranking member of the 
subcommittee, Senator Frist, if he is able to make it. I know 
that he cares deeply about Africa, and it is a pleasure to work 
with him on this subcommittee, and I thank him for all his 
cooperation.
    Assistant Secretary of State for African Affairs Walter 
Kansteiner is here today to testify in behalf of the 
administration. It is good to have you back. I know that the 
Department intends to come and provide a thorough briefing on 
the nature of international criminal activity and opportunities 
in Liberia soon, and we look forward to that, and we appreciate 
the administration's desire to be detailed and comprehensive, 
but I hope that what we can do today is to hear how you would 
comment and that you are prepared to discuss these issues in 
general terms today, and to share the administration's thinking 
on overall policy aims and policy tools with regard to Liberia. 
And with that, it is good to see you again, and you may proceed 
with your testimony.

  STATEMENT OF HON. WALTER KANSTEINER, ASSISTANT SECRETARY OF 
 STATE FOR AFRICAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Kansteiner. Thank you, Mr. Chairman. It is a pleasure 
to be here again, and the failed state series is a very 
important one to be looking at for Africa in particular. If I 
could briefly review how Liberia came to the state that it is 
in, and then perhaps look at some of the questions you have 
raised as far as what the international community, particularly 
the U.S. Government, is thinking about doing to assist.
    Greed and lack of good governance are the root causes of 
Liberia's descent into its present deplorable state of affairs. 
Up until the early 1980s, the government, representing 
primarily the interests of a privileged minority, ruled the 
country. One night, a group of noncommissioned officers put an 
abrupt end to that government, but unfortunately did not bring 
an end to narrow-interest governance. The new Liberian leader 
then was Sergeant Sammy Doe. He hijacked an election and 
created a narrow, ethnically based government.
    Within 9 years of taking power, he, too, faced a challenge, 
this time by an insurgency led by Charles Taylor. Liberia 
suffered a 6-year civil war and, as we know, that war was truly 
devastating. Some 750,000 persons were driven out of Liberia as 
refugees, and another 200,000 were killed. The unprecedented 
regional military intervention that ECOWAS launched did bring 
about a cessation of fighting, and elections followed. Those 
elections were held under the threat of a renewal of violence 
if Charles Taylor was not elected. Many observers believe that 
the people of Liberia really voted for peace, and not 
necessarily for Taylor.
    Doe and Taylor both had an opportunity to provide Liberia 
some real leadership, but they did not. For our part, we tried 
to strengthen democratic institutions and help rehabilitate the 
social and economic infrastructure. When Taylor came to power, 
we had USAID support in full, ready to assist to help rebuild 
those institutions. The opportunity of this period was 
squandered.
    Taylor devoted Liberia's resources to supporting the 
Revolutionary United Front, the RUF, next door in Sierra Leone 
and its continued efforts to seize power in that country. 
Instead of investing in Liberia, Taylor divested Liberian 
assets to support his broader ambitions in the region, to 
enrich his cronies, and to ensure the loyalty of his hired 
security forces. He stopped servicing Liberia's debt and, as a 
result, the country is under Brooke sanctions.
    To fund this regional ambition, Charles Taylor created new 
sources of revenue primarily through trading illicit diamonds. 
He provided the conduit and the paths through which the RUF got 
their diamonds out, and by which they were marketed. Taylor 
also contracted with the Oriental Timber Company and with other 
foreign logging firms that exploit the indigenous hardwood 
forests of Liberia, some of the most beautiful forests on the 
continent, I might add. Global Witness and others have done an 
excellent job of documenting this atrocious raping of Liberia's 
irreplaceable natural resources.
    Taylor has used these revenues from both diamonds and 
timber to fund his reckless exploitation of the conflicts in 
the neighborhood. In doing so, he has clearly violated a number 
of U.N. embargoes, particularly the U.N. arms embargo, as he 
pumps more weapons into the territory, into the neighborhood.
    The international community reacted slowly to Taylor's 
regional destabilization and even more slowly to his 
malgovernance of Liberia. Faced with the disengagement of 
ECOWAS forces, the Government of Sierra Leone negotiated a 
power-sharing agreement with the RUF. Encouraged by Taylor, the 
RUF repudiated the agreement and took as hostages several 
hundred U.N. peacekeepers. Really, only by the intervention of 
the British forces in May of 2000 did we see the RUF prevented 
from seizing Sierra Leone.
    Mr. Chairman, Charles Taylor has set Liberia on a course 
toward ever-greater hardship and suffering of the Liberian 
people and, as you mentioned, it is that which we need to focus 
on in addition to his reckless behavior in the neighborhood. 
The latest military challenge that he is now facing is by a 
group called Liberians United for Reconciliation and Democracy, 
known as the LURD. I do want to make it clear that the U.S. 
Government does not condone armed insurrection in Liberia, nor 
do we support the LURD. In fact, we have pressed the Government 
of Guinea and others not to support the LURD.
    But let me finally conclude with attempting to really get 
at what you were asking earlier, and that is, how does a failed 
state such as Liberia recover, and what role can and should the 
United States play? It is important to recognize that Charles 
Taylor's regime is probably unlikely to change. It would be a 
long shot to assume he is going to change his stripes. He 
might, and we need to be ready, but it is a long shot.
    I think a more important starting point is that of the 
widespread Liberian desire for peace and stability. That 
popular will must be given more concrete direction by leaders 
who are able to craft a widespread common vision of a new 
Liberia. We believe that widespread vision is there, and we 
need to help the opposition forces and those that have that 
vision coalesce around that vision and with each other. A 
united opposition should contest Liberia's 2003 election. With 
the right support from the international community, the 
elections can be made free and fair. If not free and fair, they 
can be exposed as a sham.
    The key to elections being free and fair is ensuring that 
the Liberian people feel that their vote will be confidential, 
and that their preferred candidates could run and win without 
the renewed risk of violence. Securing this condition while 
Taylor's security forces remain unchecked is going to be 
difficult, and so that is why we are now discussing with our 
European allies as well as African states perhaps looking at an 
outside force, or maybe ECOWAS, to ensure that security and 
give that pre-election environment that is so needed to make a 
free and fair election.
    The Liberian people want to see some improvements in the 
quality of life. With few resources at its disposal, any post-
failed state government will depend on help from the 
international community. Of paramount importance is ensuring an 
adequate food supply until commercial mechanisms can be 
restored. The United States should play a lead role here, along 
with other international partners such as the World Bank and 
the European Community and ECOWAS.
    In conclusion, I might say two things are certain about 
Liberia: No. 1, it is not going to recover from its present 
deplorable state without some real help; and No. 2, the timing 
and circumstances of any change really is not predictable. We 
have to remain flexible, and with your help, and with 
consultations, we plan to look for opportunities to do just 
that.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Kansteiner follows:]

 Prepared Statement of Hon. Walter Kansteiner, Assistant Secretary of 
                       State for African Affairs

    Mr. Chairman, members of the committee, it gives me great pleasure 
to appear before you today to pursue the topic of failed states in 
Africa. Today you have asked that I focus on Liberia, West Africa's 
most failed state. I would like to review briefly how Liberia came to 
its present nadir as well as how the decline in Liberia's fortunes has 
affected the sub region and created an opening for international 
criminal and terrorist activities. Then I would like to address what 
the United States and others in the international community are doing 
and I believe will need to do to bring Liberia back into the fold of 
democratically well governed nations.
    Greed and lack of good governance are the root causes of Liberia's 
descent into its present deplorable state of affairs. Up until the 
early 1980s, a government representing primarily the interests of a 
privileged minority of Liberians pursued to excess the enrichment of a 
narrow class. If you wanted to send your child to school, you had to 
buy textbooks imported by a relative of the president. If you wanted to 
operate a taxi, you had to buy the yellow paint for it from a company 
owned by a close associate of the president. Rice, the staple food, was 
imported and sold by another government monopoly. One night, a group of 
non-commissioned officers put an abrupt end to that government, but 
unfortunately, despite significant U.S. assistance, did not bring about 
an end to narrow interest governance. The new Liberian leader, Sergeant 
Doe, slowly eliminated most of his original compatriots, hijacked an 
election and created a narrow ethnically based government. Within nine 
years of taking power, he faced an armed insurgency led by Charles 
Taylor. Though Doe lasted less than a year after Taylor launched his 
bid for power, Liberia suffered a six-year civil war. That war had such 
tremendous humanitarian consequences, with at least 750,000 persons 
driven out as refugees, one million IDPs and estimates of up to 200,000 
killed, and so threatened the stability of the sub region that the 
Economic Community of West African States (ECOWAS) dispatched a 
military force to try to restore order.
    The unprecedented regional military intervention did bring about a 
cessation of fighting, but the subsequent disarmament and 
demobilization program it oversaw was far from complete and the 
elections that followed were held under the threat of a renewal of 
violence if Charles Taylor were not elected. Many observers believe 
that the people of Liberia voted for peace, not Taylor.
    Like Doe before him, Taylor had an opportunity to provide Liberians 
the good governance they deserve. USAID support for Liberia during the 
early Taylor period focused on the country's transition from emergency 
assistance to sustainable development. We tried to strengthen 
democratic institutions, reintegrated IDPs and invested in the 
rehabilitation of social and economic infrastructure. The opportunity 
of this period was squandered. Instead of good governance and 
reconstruction, Taylor devoted Liberia's resources to supporting the 
Revolutionary United Front's (RUF) continued efforts to seize power in 
neighboring Sierra Leone. After five years in power, Liberia's capital 
still has no reliable electric supply or running water. Instead of 
investing in Liberia, Taylor divested Liberian assets to support his 
broader ambitions in the region, to enrich his cronies and to ensure 
the loyalty of hired security forces. While hundreds of thousands of 
refugees and internally displaced persons (IDPs) returned home, 
Taylor's government made no real efforts to foster development and 
recovery to build on the investments the international community made 
through reintegration assistance. He stopped servicing Liberia's debt 
and the country fell under Brooke sanctions.
    To fund his regional ambitions, Taylor went beyond diverting the 
resources of the Liberian state. He created new sources of revenue 
through trade in illicit diamonds. He provided the conduit around 
international sanctions, for diamonds mined in RUF-controlled areas of 
Sierra Leone to pass through middlemen based in Liberia to world 
markets. The middlemen brought in by Taylor and his cronies have 
certainly operated outside the legitimate diamond trade and may, though 
we cannot confirm the press allegations on this, have dealt in diamonds 
with persons affiliated with international terrorist groups. Taylor 
also contracted with the Oriental Timber Company (OTC) and other 
foreign logging firms that have exploit Liberia's hardwood tropical 
forests. Global Witness and others have done an excellent job of 
documenting this atrocious raping of Liberia's irreplaceable natural 
resources. Possibly worse, there are reports that after signing a 
forestry protection agreement with an international conservation group, 
Taylor has allowed logging operations in the Sapo National Park.
    Taylor has used revenues from diamond smuggling and reckless 
exploitation of Liberia's rain forest primarily to buy weapons, to fuel 
conflicts in neighboring countries, and to arm his proliferating 
internal security forces. To obtain these weapons, Taylor has violated 
successive United Nations arms embargos (UNSCR 788 of November 19, 
1992, UNSCR 1343 of March 7, 2001 and UNSCR 1408 of May 6, 2002). He 
dealt with gray and black-market agents, such as Victor Butt, to 
procure and transport weapons into Liberia. Thus, both on the resource 
generation side and on the expenditure side, Taylor has taken up 
company with those on the fringe of and outside legal operations.
    The international community reacted slowly to Taylor's regional 
destabilization activities and even more slowly to his malgovernance of 
Liberia. The United States and the rest of the international community 
failed initially to provide the backing ECOWAS needed to continue its 
peacekeeping operation in Sierra Leone. Faced with a disengagement of 
ECOWAS forces, the Government of Sierra Leone negotiated a power 
sharing agreement with the RUF. Encouraged by Taylor, the RUF 
repudiated the agreement and took as hostages several hundred UN 
peacekeepers who had gone to Sierra Leone to oversee its 
implementation. Only intervention by British forces in May 2000 
prevented the RUF from seizing power in Sierra Leone. In July 2000, the 
United States gave Taylor an overdue ultimatum, cease supporting the 
RUF and destabilizing the region or face serious consequences. In 
September 2000, the Taylor-supported RUF invaded Guinea. We replied 
with unilateral travel sanctions on Taylor and his cronies. A few 
months later UN sanctions on diamonds, arms and travel were instituted.
    Despite the RUF's reversal of fortunes at the hands of the Guinean 
military and under pressure from an ever stronger and more determined 
UN peacekeeping force in Sierra Leone, which led the majority of the 
RUF to unconditionally agree to disarm and demobilize, Taylor remains 
recalcitrant. He has welcomed into Liberia those elements of the RUF 
who refused to disarm and demobilize, and has ensured they remain armed 
and dangerous. This potential threat to peace and stability in the 
region led the UN Security Council to renew sanctions on Liberia last 
month.
    The reluctance of the international community to address the 
internal affairs of Liberia is beginning to crumble, as ECOWAS has 
begun urging the Liberian government to talk with the rebels of the 
group known as Liberians United for Reconciliation and Democracy 
(LURD). On March 1, Embassy Monrovia issued a press statement that 
clearly laid out what we expect of the Taylor government, both in terms 
of its actions in the region and within Liberia. We called on Taylor 
to: (1) discipline members of the security forces who have threatened 
or have used violence against political or civil society leaders; (2) 
to grant amnesty to all political opponents; (3) to respect the freedom 
of the press, cease harassment of members of the press and allow 
independent electronic media to broadcast AM, FM and shortwave 
throughout Liberia; (4) to fully address the security/safety concerns 
of political and civil society leaders; (5) to reach agreement with all 
peaceful political movements and parties on the specific nature of 
guarantees and mechanisms required for the conduct of open political 
debate and free, fair and inclusive elections; and (6) to respect fully 
the right of peaceful assembly and freedom of speech.
    Using the pretext of a threat posed by an armed group calling 
itself, ``Liberians United for Reconciliation and Democracy'' (LURD), 
the Taylor government responded to our calls for greater openness with 
a ban on public gatherings, closure of an independent newspaper, 
harassment of human rights activists, and recruitment of new 
undisciplined and unpaid militias to protect itself.
    Mr. Chairman, Charles Taylor has set Liberia on a course towards 
ever greater hardship and suffering of the Liberian people. He waged 
war to gain power, but has failed to govern justly and wisely and now 
faces an armed revolt. The United States government does not condone 
armed insurrection in Liberia nor do we support the LURD. In fact, we 
have pressed the government of Guinea not to support the LURD. Although 
Taylor blames the LURD for the rampant insecurity in the countryside, 
in fact, his own poorly trained and unpaid troops are mainly 
responsible for the looting and fear that is generating tens of 
thousands of internally displaced persons (IDPs). The Liberians 
displaced by the depredations of Liberian security forces are resettled 
by Liberian government authorities in areas where they are vulnerable 
to further depredations by armed forces. Taylor blames the 
international community for not responding to the plight of these IDPs. 
The reality is that these people need protection from their own 
government and humanitarian suffering will go on to some degree as long 
as Taylor's lack of good governance persists. Nevertheless, the United 
States government will do its part in addressing the humanitarian needs 
of Liberian refugees and IDPs.
    ECOWAS has also recognized that the growing instability in Liberia 
demands an outside response. ECOWAS, at its recent meeting in Cote 
d'Ivoire, issued a call for cease-fire and talks between the Liberian 
government and the LURD. Although Taylor's spokesman initially rejected 
the proposal and his government has since equivocated about how it will 
respond, we are encouraged that ECOWAS has asked Nigeria's President 
Obasanjo to pursue this. ECOWAS has also tried to facilitate a dialogue 
between other political factions and the Liberian government. This is 
the type of action warranted under the peer review provisions of NEPAD.
    Mr. Chairman, let me conclude by attempting to address the 
questions I believe most interest you: how can a failed state such as 
Liberia recover and what role can and should the United States play. 
First, it is important to recognize that the Taylor regime is unlikely 
to change its manner of governance or its ambitions. Given the monster 
of undisciplined security forces it has created, it is questionable 
whether the Liberian government could survive if it sought to change 
the way it governs. That leads to the question of what happens next. 
Chaos is a possible scenario. Since a state in anarchy is fertile 
ground for international criminal and terrorist activity and since 
restoring order out of chaos is a tall order for the international 
community, our focus must be to ensure there is a plausible alternative 
scenario.
    A starting point is the widespread Liberian desire for peace and 
stability. That popular will must be given more concrete direction by 
leaders who are able to craft a widespread common vision of a new 
Liberia. Political and civil society leaders focused on a common vision 
rather than internecine squabbling is a prerequisite for rebuilding a 
peaceful, democratic and more prosperous Liberia. Due to the historic 
relationship between the United States and Liberia, many Liberians 
still look to the United States to help lead the way to a better future 
for Liberia. As a first step in helping Liberia recover from its 
current circumstances, the United States can facilitate discussion 
about the shape of a new Liberia, but the vision of a new Liberia must 
come from Liberians themselves.
    A united opposition should contest Liberia's 2003 elections. With 
the right support from the international community the elections can 
either be made free and fair or exposed for the sham they easily could 
be. The key to elections being free and fair is ensuring that the 
Liberian people feel they can vote for their preferred candidates 
without the risk of renewed violence. Securing this condition while 
Taylor's security forces remain unchecked is unlikely to occur. Perhaps 
the answer is an outside force, possibly an ECOWAS force to ensure 
security.
    However change may occur, no political leadership can succeed if 
the armed thugs running rampant in the countryside are unchecked. 
Experience in Eastern Europe, East Timor and Sierra Leone suggest that 
an armed outside force, perhaps another ECOWAS force in Liberia's case, 
will be needed in order to protect a nascent government, disarm and 
demobilize the willing, and marginalize and hunt down as criminals 
those who persist in living by the gun. Disarmament and demobilization 
can only succeed if there is a new life for the former fighters. Some 
can be retrained and reformed into a new Liberian Armed Force; most 
will need to be provided retraining and real opportunities for 
successful integration into civilian life.
    First and foremost, the Liberian people want to see peace and feel 
secure again. But for urban populations in particular, they will soon 
want to see some improvements in the quality of life. With few 
resources at its disposal, any post-failed state government will depend 
on help from the international community. Of paramount importance is 
ensuring an adequate food supply until commercial mechanisms can be 
restored. Visible progress in restoring basic infrastructure and public 
services such as water and electricity is likely also necessary to 
generate popular support and the legitimacy such support confers. The 
United States should play a lead role here along with other 
international partners, such as the World Bank, European Community and 
ECOWAS. Efforts must begin very early to develop national consensus on 
a new political framework, to strengthen independent media and civil 
society. Technical assistance and funds to rebuild institutions from 
the courts to the civil service will also be critically needed. To 
staff these rehabilitated institutions, Liberia will need its best and 
brightest to return from abroad.
    Two things are certain, Liberia will need our help recovering from 
its present deplorable state, and the timing and circumstance of any 
change is not predictable. We will need to remain flexible, prepared to 
act quickly, boldly and generously if Liberia is to make a success of a 
third opportunity to succeed.

    Senator Feingold. Thank you, Mr. Kansteiner, for your 
testimony. You referred to the Liberians United for 
Reconciliation and Democracy, and let me ask a few questions 
about that group. Has the U.S. Government had any contact with 
the LURD?
    Mr. Kansteiner. I think we have had some very minimal 
contact, and it is primarily through individuals in surrounding 
neighboring countries and in the United States. We do not have 
a continuous running dialog with them, no.
    Senator Feingold. Do you know if the LURD has a clear and 
unified leadership structure, or do they have sort of multiple 
voices that purport to speak for them?
    Mr. Kansteiner. My analysis is the latter, in fact. It is 
rather disunified, and they have multiple patrons, really, 
supplying them and helping them.
    Senator Feingold. I think I know your answer to the next 
one, based upon your remarks, but let me be sure. Is 
negotiation with the LURD feasible in this sense, based upon 
what you just said?
    Mr. Kansteiner. I think it would be very difficult.
    Senator Feingold. Would it be desirable?
    Mr. Kansteiner. I am not sure it would be desirable. I 
think it is worth exploring that option, quite frankly. I think 
it is worth learning more about this organization, and we in 
fact have asked certain of our agencies in the government to 
help us learn more about it.
    Senator Feingold. So I take it at this point you would not 
be ready to say negotiating with the LURD would be akin to 
negotiating with the RUF?
    Mr. Kansteiner. No, I do not advocate that our policy 
priority be to seek them out and negotiate with them, no.
    Senator Feingold. I know these are tough things to guess 
about, but then how do you get to a cease-fire in Liberia, 
given the difficulty of trying to negotiate with the LURD?
    Mr. Kansteiner. I think a very important role can be played 
by ECOWAS and by the neighboring countries. Clearly, some of 
the neighboring states, Guinea in particular, seem to have some 
influence with the LURD and other organizations; it is perhaps 
through them that we can learn more about and pressure the LURD 
to negotiate.
    We also have to pressure the Taylor side, too, but again, I 
do not think it is a policy priority. I certainly would not 
want to rule it out, either. I think we need to explore it.
    Senator Feingold. Let me pursue the connection to the 
Government of Guinea. Your comments suggest the Government of 
Guinea is assisting the LURD, is that correct?
    Mr. Kansteiner. I am not sure I would characterize it as 
assisting. I would say that they probably are aware of 
assistance that is going through Guinea. If they are actually 
part and parcel of that, I do not know, but they are certainly 
aware there is assistance that is going through their country.
    Senator Feingold. Have we in any way in our assistance, 
American assistance to Guinea, tried to condition that 
assistance on an end to support for the LURD?
    Mr. Kansteiner. We have not.
    Senator Feingold. Are there any plans to do so?
    Mr. Kansteiner. No, but Guinea knows exactly where we stand 
on the LURD, and we have told them that we see any direct 
Government of Guinea assistance to the LURD as highly 
problematic and, in fact, would jeopardize our relationship.
    Senator Feingold. This is something we may want to pursue 
with you in further discussions. Let me talk a little bit about 
the relationship which you have already talked about between 
the RUF and the Liberian Government. To what extent do you 
believe that the RUF is still associated with the Liberian 
Government?
    Mr. Kansteiner. I believe there is still a link. As you 
know, the RUF stood for elections in Sierra Leone and came down 
in defeat as far as the electoral outcome is concerned.
    Senator Feingold. Did the Government of Liberia get 
involved in any of RUF's political activities that led up to 
the elections in Sierra Leone?
    Mr. Kansteiner. I would not rule it out. I do not know 
specifically, but that would not surprise me, and recently, as 
recently as 10 days ago, we have seen activity going on between 
Liberia and the RUF into Sierra Leone. That linkage is still 
there.
    Senator Feingold. I think you have alluded to this, but as 
I understand it, it is U.S. policy to support a transition to a 
credible democratic government in Liberia and obviously to ease 
the suffering of Liberian civilians. What precisely is the U.S. 
Government doing to pursue these goals?
    Mr. Kansteiner. We have a couple of programs that are 
underway. We have a couple more we are considering. The ones 
that are currently underway are assistance to authentic 
opposition, that is, opposition parties helping them become 
better organized in the sense of seeking this common vision we 
discussed. The opposition is splintered, and the best way for 
them to present a viable alternative to Taylor is, in fact, to 
have some kind of coalition, some kind of unification.
    The other way, the other project we are specifically 
working on is communications, AM-FM and shortwave radio 
transmissions. Again, as you know, Senator, the Taylor regime 
has controlled the media very tightly and become quite 
autocratic about it, and so what we are trying to do there is 
simply get a free, independent, objective media source that has 
some capability to get into Liberia and disseminate news and 
information that is unbiased and objective.
    Senator Feingold. Let me pursue both of those for a minute. 
What exactly is being done to assist what may be perceived or 
hoped to be authentic opposition? What are we doing to help 
them?
    Mr. Kansteiner. A couple of things we are doing is actually 
trying to bring them together, literally, physically.
    Senator Feingold. Hosting meetings?
    Mr. Kansteiner. Primarily meetings, getting them to 
understand some basic party-building exercises, some grassroots 
organization. In the oppressive environment of Liberia, 
building an opposition party is hard.
    Senator Feingold. But there is an active effort that we are 
involved in to do that?
    Mr. Kansteiner. There is, yes, sir.
    Senator Feingold. What about the radio piece again? What 
exactly are we doing?
    Mr. Kansteiner. We have an $800,000 program that will 
promote independent media. It is shortwave AM and FM radio, 
training journalists, and the purchase of what in Africa is 
becoming quite standard are these wind-up radios, so it is not 
necessary to have batteries or electricity. It is actually a 
wind-up radio, and so we are providing these wind-up radios, so 
once we get these shortwave and FM stations up and running, 
people can hear them.
    Senator Feingold. Let me ask you a closely related 
question. To what degree is the United States providing 
assistance to Liberian civil society, and how well is the civil 
society well-developed in Liberia? I mean, to some extent that 
is governed by opposition parties, but civil society is broader 
than that.
    Mr. Kansteiner. It is broader than that. In fact, we are 
including the civil society into some of these discussions, 
because they have a large role to play. So on the training of 
the journalists, for instance, we are kind of broadening that 
out, and we would consider independent journalists as a key 
component of that civil society, so we are trying to be as 
inclusive of civil society, and as you know it is pretty thin 
right now in Liberia, and they need all the help they can get.
    Senator Feingold. Very good. Thank you.
    Last year, an article in the Washington Post alleged that 
Hezbollah and even al-Qaeda representatives had purchased 
Sierra Leonian diamonds through Liberia. Can you speak 
generally about other international actors known to be doing 
business in Liberia?
    Mr. Kansteiner. We also read those reports and were quite 
interested and concerned, and we have asked for a thorough 
analysis of that. So far, we cannot find any direct evidence 
that they were primary buyers, but they probably were secondary 
buyers, though, and certainly tertiary buyers for the second 
and third and fourth transactions that clearly were taking 
place. These organizations quite frankly use all the 
commodities, be they diamonds, or--as we know, al-Qaeda has 
used honey--multiple businesses and commodities that they trade 
and buy and purchase. I have no doubt that gemstones and 
diamonds somewhere along that food chain are involved.
    The other major source of revenue, of course, in Liberia 
right now that could fall into that category, and I am not 
saying it is, but could fall into that category, is timber. We 
see the timber sales primarily going from the hardwood forests 
that Taylor licenses and probably gets a cut of, no pun 
intended, directly to end users. But there could be middle men 
involved in that as well.
    Senator Feingold. And who would be some of these other 
international actors?
    Mr. Kansteiner. Malaysian and Chinese timber companies have 
been active in Liberia, and clearly getting licenses to cut 
this timber from President Taylor.
    Senator Feingold. Senator Frist, the ranking member of the 
committee, has arrived, and what I will do at this point is 
call on him for any remarks he has, as I have already taken a 
few minutes to ask questions. If you wish, after you make your 
remarks, you can ask your questions.
    Senator Frist. I apologize, Mr. Secretary and Mr. Chairman, 
for my tardiness. I planned on being here right on time, but I 
apologize. Let me just say--and I will just be very, very 
brief, actually, and will submit my opening statement to the 
record if that is OK, Mr. Chairman.
    [The prepared statement of Senator Frist follows:]
                Prepared Statement of Senator Bill Frist
                     u.s. policy options in liberia
    Mr. Chairman, thank you. I look forward to hearing what I 
anticipate will be very thoughtful testimony and policy recommendations 
from our witnesses here today.
    There are three general issues that I hope we can explore here 
today. First, what policy options do we have to place pressure on 
President Charles Taylor so that he will stop engaging in behavior that 
undermines regional stability? Should this pressure be extended to 
others, and if so, who? Second, I hope to hear your thoughts on steps 
can we take to help relieve the plight of ordinary Liberians. And 
finally, Liberia is scheduled to hold elections in October 2003. I 
would like to hear your thoughts on what steps can we take to ensure 
that those elections are free and fair and how can we engage Liberia's 
civil society to encourage their participation in the elections and 
their efforts to rebuild civil society over the long-term.
    As our witnesses will describe here today, Liberia has suffered 
from a long-standing off-and-on civil war that has torn the country 
apart for over a decade. Fighting between the regime of Charles Taylor 
and the Liberian United for Reconciliation and Democracy (LURD) 
threatens not only the citizens of Liberia but the fragile peace and 
stability of the region.
    Neighboring Sierra Leone is taking the first careful steps toward 
reconciling its long and brutal civil war--holding free elections on 
May 14. Yet, I am concerned that the Taylor regime could be undermining 
those efforts through his support for RUF fighters who have refused to 
disarm and demobilize. I would also like to hear from our witnesses 
their assessment of the other participants in this fighting, 
particularly the LURD and the support that Guinea might be providing to 
the rebels.
    Mr. Chairman, not only am I concerned with the threat the fighting 
poses to neighboring countries of West Africa, I am also concerned with 
the threat the Taylor government poses to its own citizens. 
Increasingly, credible reports are showing that the regime continues to 
harbor international arms strugglers, drug dealers, and other criminal 
enterprises.
    Special ``security officers'' and ``anti-terrorist units'' 
intimidate the civilian population and harass the political opponents 
of the government. Human rights advocates and journalists are assaulted 
jailed on a regular basis as independent newspapers and radio stations 
are closed down. Liberians continue to live under a State of Emergency 
imposed in February 2001 by President Taylor.
    I am concerned for the welfare of Liberia's citizens who are caught 
in the middle of the ongoing hostilities. Liberia's health care and 
education systems are collapsing. The capital is without electricity 
and running water, and communication with the outside world is mostly 
limited to satellite telephones. On June 10, yesterday, our Ambassador, 
Bismarck Myrick, declared a disaster due to the complex emergency in 
Liberia.
    In October 2003, Liberia is scheduled to hold presidential 
elections. I am interested from hearing more from our witnesses their 
thoughts on steps we should take to engage with the Liberians so that 
we can help them prepare for the elections.
    I look forward to hearing your views on how we, as legislators, can 
support the Administration and use our influence to end the violence in 
Liberia. Through your testimony, I hope we can get a better 
understanding of how we can begin to address these problems and a 
better understanding of how Liberia's civil war affects the United 
States' own interests, so that we can further those interests and those 
we share with Africa. Thank you for appearing before us today.

    Senator Frist. A couple of the issues--I will just have one 
question about that--you have already touched upon, but 
something which I do not believe you have mentioned thus far is 
about health care and education in Liberia, and the collapse 
that as I read and study, and I have talked to people, seems to 
be happening. The ongoing hostilities leave the welfare of 
Liberian citizens in the middle.
    When you look at health care, and you look at education, 
and you look at infrastructure in the midst of these 
hostilities, the potential for complete collapse is there, and 
I want you to sort of paint the picture for me so I will 
understand it. The capital is without electricity and without 
running water, communication with the outside world seems to be 
in large part limited to satellite telephones. On June 10, 
Ambassador Myrick declared a disaster due to the complex 
emergency in Liberia.
    Could you take those comments and just expand upon them, 
and then maybe lead into a little bit the humanitarian efforts, 
either that are underway, or might potentially be underway as 
we look to the future?
    Mr. Kansteiner. Thank you, Senator. The general state of 
affairs in Liberia and Monrovia in particular is rapid decay, 
quite frankly. As you say, there is no electricity. Most 
institutions and buildings that have power have it because they 
have generators. Hospitals are lacking medicines and power. The 
infrastructure of the country is sagging, if not broken. It is 
in that context that some of the political maneuvering that 
Taylor is doing is particularly egregious, in the sense that he 
has three hearty meals a day and is living quite comfortably, 
as are his cronies, while the country is increasingly lawless, 
as well as lacking in infrastructure.
    For instance, Taylor could not pay his own security forces 
a few months ago, and so what he essentially did was pull out a 
map of the country and allows certain units in the military to 
basically take over this region of this county and go do 
whatever they wanted, which meant rape, pillage, and plunder 
there units what they need to be paid, since he is not paying 
them. It is that kind of atmosphere that is prevalent 
throughout the country.
    Senator Frist. And education, what is education now?
    Mr. Kansteiner. The education system has suffered mightily, 
and a country that had a fairly high literacy rate is now only 
38 percent.
    Senator Frist. When you look at that, the potential for 
humanitarian efforts to have some impact, given the hostilities 
and the approach of the Taylor regime, will humanitarian 
efforts have an impact?
    Mr. Kansteiner. Well, the humanitarian efforts do have an 
impact in the sense that they provide food assistance, they 
provide medicines, and what we are trying to do, of course, is 
funnel all of those food assistance and medical, particularly 
those, through non-governmental organizations [NGOs]--we push 
it through the NGOs that are, quite frankly, brave and bold 
enough to be there. I think you are going to hear from some of 
them who are there today. We make a very real effort to make 
sure that that assistance does not go through the Government of 
Liberia, and that it does go through independent NGOs that will 
disburse it not based on political largesse, but based upon 
true humanitarian need.
    Senator Frist. Did you talk about the elections at all, the 
May 14 elections?
    Mr. Kansteiner. The Sierra Leone elections? We briefly 
touched on it.
    Senator Frist. Generally, the international community 
obviously has recognized those as appropriate and free. As we 
look at the alleged interference by Taylor in Sierra Leone as a 
key source of the charges that Taylor's actions have 
destabilized the region, and I speak in particular of his 
support for the Revolutionary United Front in Sierra Leone, 
what is the current status today? Does the Taylor government 
pose a threat to what is a very fragile peace of Sierra Leone 
and put it in danger of collapse?
    Mr. Kansteiner. Senator, I think the good news is that 
Taylor's influence on the election process in Sierra Leone is 
pretty minimal. I mean, the RUF did very poorly, and I have no 
doubt that Taylor was somehow trying to assist the RUF in their 
political campaigns. That is the good news, that it was a 
relatively free and fair election, and we do have now a 
democratically elected government next door in Sierra Leone.
    The bad news is that Taylor is still involved in cross-
border operations. They are not large-scale. They are 
relatively small, but they are still occurring, and if it is 
just shipping a few AK-47's into the RUF territory, or if it is 
trying to smuggle 10 percent more diamonds out, whatever that 
activity is, it is significantly less today than it was a year 
ago. It is still going on to some degree.
    Senator Frist. Thank you, Mr. Chairman.
    Senator Feingold. Thank you very much, Senator Frist. I 
will just continue with some further questions for Mr. 
Kansteiner. I would like to follow on something Senator Frist 
asked. Have we actually stepped up our humanitarian assistance 
to Liberia since the fighting with the LURD began affecting 
civilians?
    Mr. Kansteiner. We have. The fiscal year 2002, which they 
just handed me the numbers, we have provided $4.8 million in 
support for humanitarian assistance programs. Again, most of it 
is food assistance and medicines. A lot of it is targeted for 
the refugees and the internally displaced persons. The total 
2001 assistance for education, nutrition, and refugees and IDPs 
was $10.7 million. That also gives the primary vehicles the 
NGOs, as we mentioned, and also UNHCR we are working with, and 
ICRC, and we predict that that the fiscal year 2002 level of 
support will stay or increase in 2003, in fiscal year 2003.
    Senator Feingold. I would like to go back to another 
question that I was beginning with before Senator Frist came. 
Are there links between people doing business in Liberia and 
armed groups that are elsewhere in Africa, political parties 
elsewhere in Africa?
    Mr. Kansteiner. Not that come immediately to mind.
    Senator Feingold. What about the relationship between 
Liberia and Libya?
    Mr. Kansteiner. The Taylor-Qaddafi relationship is a long 
one. Some of Taylor's original training we believe in fact was 
in Libya, and some of those early weapons shipments and perhaps 
current weapons shipments clearly emanated from Libya.
    Senator Feingold. Obviously, you have no reason to believe 
that relationship has softened or changed.
    Mr. Kansteiner. No, sir. I see no evidence of a lessening 
relationship there, and as we have seen elsewhere in Africa, 
when African leaders often get in tight spots they turn to the 
few friends they have, and so as the pressure on Taylor 
increases, we might even anticipate a deepening of that 
relationship.
    Senator Feingold. I am pleased you mentioned the timber 
issue. We have talked about this before. Many credible reports 
allege the Liberian Government's logging policy is not only 
environmentally disastrous, but is also characterized by 
abusive acts of security forces working with logging companies. 
Could you talk about the relationship between the Government of 
Liberia, the logging firms operating in Liberia, and state-
sponsored security forces?
    Mr. Kansteiner. Well, the Government of Liberia has entered 
into negotiations and, in fact, contracts with a number of 
international timber companies. The OTC, Oriental Timber 
Company, is probably its largest partner in the cutting of the 
hardwoods. We are very pleased that the U.N. Security Council 
agreed with the United States and the British in what we are 
calling ring-fencing those timber revenues. It is a voluntary 
process where the Security Council has demanded that the Taylor 
regime and Monrovia give us a transparent and complete 
accounting for all timber proceeds.
    If they do not give us that accounting, I would hope that 
the U.N. Security Council would, in fact, move the next step 
forward, which would be a mandatory cordoning off of those 
revenues, so we know exactly how much those revenues are, where 
they are going, and how they are being spent.
    Senator Feingold. You actually support the calls for a ban 
on timber exports from Liberia because of the links between 
timber revenues and illicit arms purchases?
    Mr. Kansteiner. I think that is a very viable option we 
ought to look at.
    Senator Feingold. How would sanctions like that affect 
Liberian civilians who are already suffering in a devastated 
economy?
    Mr. Kansteiner. We have looked at that, and we were 
surprised to find how few Liberians are actually actively 
engaged in some of the timbering operations. In fact, we have 
seen where companies coming in from the outside, non-African 
companies like the Oriental Timber Company, often bring in 
workers to provide the labor, so the Liberians themselves are 
not even benefiting from the clear-cutting of their own forest.
    Senator Feingold. So the impact would be negligible?
    Mr. Kansteiner. I think it would be pretty small.
    Senator Feingold. Let me turn to another aspect of 
Liberia's economy. Liberia maintains one of the largest 
maritime fleets in the world. An expert report to the U.N. 
Security Council last autumn concluded in part that the 
Liberian Commission of Maritime Affairs Bureau acted at times 
as, ``little more than a cash extraction operation,'' offering 
cover to fund and organize Liberia's off-budget expenditures, 
including prohibited U.N. sanctions-breaking activities.
    In one particularly troubling allegation, the panel of U.N. 
experts also presented evidence to suggest that the Maritime 
Registry itself, which is run by a corporation in the United 
States, transferred funds on behalf of the Government of 
Liberia to suspicious nongovernmental accounts. Some of those 
funds could have been used directly to support sanctions-
busting activities.
    In a more recent report to the Security Council in April of 
this year, that same expert panel reported that they had 
obtained additional documentation linking an arms dealer to the 
Maritime Affairs Bureau in Liberia. They also reported that 
despite steps by the Maritime Registry and the Ministry of 
Finance to provide a full accounting for all maritime funds, as 
much as $2 million in recent payments from the Maritime 
Registry to the Central Bank of Liberia remain unaccounted for.
    Given these reports, do you believe that hard currency 
revenues generated by the registry are being used by the 
Government of Liberia to support arms trafficking or other 
sanctions-busting activities, and should the United States 
press the international community to set up an international 
auditing mechanism to account for the money generated by the 
maritime registry, thereby ring-fencing the revenues to ensure 
that they are used for legitimate development or humanitarian 
purposes?
    Mr. Kansteiner. I agree on all of the above. We have pretty 
clear evidence that there were at least some payments--now, 
this goes back a couple of years, but there were some payments 
from the Maritime Registry to arms shippers. We have been given 
assurances, and the fiscal data we have seen since would 
suggest that that has ceased, that has not occurred since, but 
that does not mean that that money is not fungible.
    The revenue stream goes from the ship registry to the 
Government of Liberia, and once it gets into the Government of 
Liberia's central bank system, we do not know where it all 
goes. So with regard to the second part of your question, we 
are very supportive of cordoning off that revenue stream. It 
is, we think, about $20 million a year. We would like to know 
where that $20 million a year goes, and how the Liberian 
Government spends it. The Security Council has imposed 
basically a process where the Government of Liberia would 
voluntarily demonstrate to us ring-fencing and accountability.
    There are a number of companies that could do this. Crown 
Agents out of the U.K. is being considered right now as 
basically an accounting mechanism. But if the Government of 
Liberia does not proceed with some good intent, then I think we 
need to go back to the Security Council and make it mandatory 
rather than voluntary.
    Senator Feingold. I appreciate that answer. Some observers, 
notably the International Crisis Group, have suggested that the 
international community should focus its energies on 
encouraging a genuinely free and democratic election in October 
of 2003. I would like your assessment of that suggestion. Will 
the United States provide assistance in the months leading to 
the elections and, given what you have described, the 
government's history and the current state of emergency, can we 
really take the prospect of democratic elections seriously?
    Mr. Kansteiner. It is going to be the policy tactic or 
strategy that I think we are going to need to work most on as 
we approach the third quarter 2003 election. Will there be an 
environment in Liberia that truly is going to allow for a free 
and fair election. Or is there going to be intimidation? Are 
Taylor's thugs going to run rampant? Hence my reference in the 
testimony about possibly getting some kind of peacekeeping 
operation, or certainly an outside force like an ECOWAS to be 
there to provide that more open and friendly environment where 
Liberians truly could have a voice and really could vote in a 
reasonably free and fair environment. I think those are the 
issues that are going to be confronting us in the next 15 
months.
    Senator Feingold. With regard to ECOWAS, what is the 
current ECOWAS position regarding sanctions on Liberia? Do some 
of the regional actors have some clear interest on easing 
pressure on President Taylor?
    Mr. Kansteiner. I think ECOWAS is walking this fine line 
between wanting to see Liberia go right--that is, have a decent 
election in 2003--and putting the pressure on Taylor to make 
sure that that happens and on the other hand are concerned that 
if they push too hard, Taylor will fall but chaos may follow. 
They do not want a neighbor that is fraying at the edges in 
every way, shape, and form, and refugees, overwhelming their 
countries.
    That worries them too, and so they, I think, are trying to 
walk this fine line between keeping the heat on Taylor so he 
will, in fact, have a free and fair election, but not pushing 
so hard that they drive him over the edge prompting Liberian 
chaos for the next 3 years or so.
    Senator Feingold. One more question, then I will see if 
Senator Frist has additional questions for you. Overall, how 
effective has the international community been in implementing 
sanctions on Liberia? How easy it is, really, to engage in 
sanctions-busting activity in West Africa, and what can be done 
to improve the enforcement?
    Mr. Kansteiner. Well, I think our targeted sanctions have 
been pretty effective. The U.N. has its sanctions against the 
Taylor elites. We have additional sanctions on top of that. A 
lot of these are travel prohibitions. That is important, and we 
need to maintain that heat.
    It is also important in the sense that it is a targeted 
sanction. The people of Liberia do not really suffer because 
Taylor's Cabinet cannot come to New York to shop. These are 
targeted, personality-driven specific sanctions against 
individuals, and in that sense I think they are effective. I 
think it puts some heat on Taylor, and I think the financial 
sanctions, that is, the prohibition on the diamonds and 
hopefully placing the timber and maritime proceeds in escrow 
will be additional pressure.
    Senator Feingold. Senator Frist.
    Senator Frist. Mr. Chairman, I do not have further 
questions. I just want to thank the Secretary for his 
outstanding work, and I appreciate the opportunity of working 
with you on all of these issues. Thank you for being with us.
    Mr. Kansteiner. Thank you, Senator.
    Senator Feingold. I join in thanking Secretary Kansteiner 
for his fine work, for his testimony, and his patience in 
answering all of our questions.
    Mr. Kansteiner. My pleasure. Thank you very, very much.
    Senator Feingold. We will go to the second panel now. We 
have an excellent private panel before us today. They all have 
very distinguished backgrounds. Ms. Binaifer Nowrojee is 
counsel for Human Rights Watch's Africa Division. She has been 
with the organization since 1993. Prior to that, Ms. Nowrojee 
served as staff attorney on Africa for the Lawyers Committee 
for Human Rights from 1989 to 1992. She was most recently in 
Liberia in April 2002, and is coauthor of the Human Rights 
Report, ``Back to the Brink, War Crimes by Liberian Government 
Rebels,'' published in May 2002.
    Ms. Rory Anderson is government relations manager and 
African policy advisor for the U.S. office of World Vision, one 
of the largest privately funded humanitarian relief and 
development organizations. World Vision gives direct 
humanitarian assistance to local populations in over 95 
countries worldwide, operational in 24 countries in sub-Saharan 
Africa, including Liberia, Sierra Leone, Angola, and the 
Democratic Republic of the Congo. Ms. Anderson has also worked 
as a project manager overseeing multimillion dollar development 
assistance projects funded by the U.S. Agency for International 
Development. In 1993 and 1994, Ms. Anderson worked in the White 
House Speechwriting Office of the President, and the 
President's National Policy Council.
    Mr. Benedict Sannoh is currently a Reagan-Fassell Democracy 
Fellow at the National Endowment for Democracy. An attorney, 
Mr. Sannoh has served as an assistant professor of law at the 
Lewis Arthur Grimes School of Law at the University of Liberia, 
and has successfully litigated several constitutional law cases 
before the Supreme Court of Liberia. He is the founder of the 
Liberian Center for Law and Human Rights.
    I welcome all of you. I would also note we have a very good 
statement here from Amnesty International that I will submit 
for the record without objection.
    [The prepared statement of Amnesty International follows:]

            Prepared Statement by Amnesty International USA

            help the liberian people build peace and justice
    On behalf of the members of Amnesty International we would like to 
thank the Africa subcommittee for holding these hearings on U.S. Policy 
toward Liberia. Amnesty International is the largest non-governmental 
human rights organization in the world with some 1 million members, 53 
sections and groups in a further 22 countries. Since 1961 Amnesty 
International has been monitoring the performances of governments in 
terms of protecting fundamental human rights. In particular AI monitors 
abuses such as arbitrary detention, extra judicial executions, torture 
and restrictions on freedom of assembly, association and expression. 
Amnesty International collaborates with local human rights groups to 
document abuses and question and challenge the governments in question 
in an effort to end the abuses and educate the general public about 
their rights. Amnesty International also seeks to hold members of the 
security forces accountable for human rights abuses.
    It is time that the United States reengage in efforts to restore 
the rule of law, respect for human rights and security in Liberia. With 
elections scheduled for next year, a growing military conflict with 
armed opposition groups and a serious humanitarian crisis--it is 
essential that efforts being made by the international community to try 
and end this 20-year old nightmare be vigorous, and coordinated--a 
critical role that can only be played by the United States.
Introduction
    The current military crisis in Liberia is now 12 years old. The 
political and human rights crisis and the breakdown of U.S. policy 
however, dates back to U.S. support for the regime of Samuel Doe who 
came to power in 1980. Support for Doe, despite a wealth of 
documentation showing rampant human rights abuses by the country's 
security forces was the first in a series of policy decisions that 
contributed to the deterioration of the protection of fundamental human 
rights in Liberia and arguably the entire region. Following the Reagan 
administration's endorsement of Doe, first Bush administration and the 
Clinton administration declined to or play a leadership role in 
military interventions to stop or limit bloodshed when opposition to 
Doe coalesced and a brutal seven-year war ensued that soon spilled over 
into Sierra Leone. Then when the Nigerian led West African peacekeeping 
force known as ECOMOG, pulled out and allowed elections that were 
neither free nor fair to be stolen by Taylor, and his NPLF faction that 
had an appalling human rights record, the Clinton administration and 
the international community did nothing arguing that there was no 
alternative and no resources to do anything else. With each decision to 
do nothing, the Liberian people have been sold down the river--and they 
continue to pay the price to this day.
    Liberia's political, human rights and economic crisis continues to 
deepen as efforts by the international community to isolate the 
government of President Taylor increase. While efforts to pressure the 
Taylor government to change its behavior are a critical step in the 
right direction. Such policies and initiatives must not be used to 
disengage and walk away from the crisis and the needs of the Liberian 
people. In other words, while seeking to neutralize the worst of the 
Taylor regime the international community must also help build a viable 
alternative based on respect for human rights and genuine democratic 
practice. Lasting peace, stability and security in the West African 
region will only be achieved if conflicts like the civil wars in Sierra 
Leone and Liberia are replaced by peace, security and governments that 
abide by and enforce the rule of law and human rights. The Bush 
administration's efforts to pressure on President Taylor and his 
supporters to reform should continue and be accompanied by increased 
support for Liberian civil society and the Liberian people.
Current Situation
    Liberia's government remains locked in a conflict with the rebel 
group, Liberians United for Reconciliation and Democracy. Human rights 
abuses continue to be perpetrated by all sides and the situation has 
deteriorated since President Taylor issued a state of emergency in 
February. There is great concern regionally that if unchecked and 
unresolved the conflict in Liberia will undermine the fragile peace 
painstakingly established in Sierra Leone, and beyond that the 
stability of the wider region. Reports by the United Nations and human 
rights groups have exposed that Liberian security forces collaborated 
with Sierra Leone's armed rebel group, the Revolutionary United Front, 
providing military training, equipment and supplies through the trade 
of rough diamonds and timber. Liberia has also had military clashes 
with Guinea who it accuses of housing and supporting the LURD. In yet 
another example of U.S. policy gone awry, Guinea is currently the 
recipient of U.S. military assistance as part of an effort to shut down 
the RUF. Yes at the very same time Guinea is supporting the LURD, a 
faction with an equally poor human rights record.
Human Rights Concerns
    Tens of thousands of Liberians have fled the fighting and human 
rights violations such as extra judicial killings, unlawful detention, 
torture, rape, abduction, and forced labor and conscription, 
perpetrated by all sides of the conflict. Human rights abuses 
perpetrated by Liberian government forces occur frequently and with 
impunity. Men and boys have been extra judicially executed on suspicion 
of backing armed opposition groups, or illegally held as ``dissidents'' 
in dozens of illegal detention centers where they were held 
incommunicado and tortured. They are sometimes held for weeks in holes 
in the ground, tear-gassed, had acid thrown on them, were denied water 
and food. Several have reportedly died as a result.
    Sexual violence, including rape is used as a weapon by the 
government forces to instill terror among the civilian population. 
Hundreds of women and girls, some as young as 12 years of age, were 
detained at military checkpoints and gang-raped. Some were forced into 
sexual slavery in homes. Again, security forces continue to enjoy 
impunity for these abuses.
    Outside conflict areas government forces have attacked critics: 
including journalists, human rights defenders, lawyers and opposition 
politicians, some of whom were forced to flee the country. In April the 
government banned all political activity, including public meetings, 
declaring a state of emergency.
    LURD forces have also committed human rights abuses against 
civilians. They have reportedly deliberately killed and tortured, 
including by raping, unarmed civilians suspected of supporting 
government forces.
    The crisis in Liberia has generated at least 40,000 internally 
displaced people. Many others have crossed the border, including 4,000 
who fled into Guinea, with 10,000 expected to join them, and 3,000 
others trying to cross into Sierra Leone. These people are particularly 
vulnerable to abuse by all armed groups in the region and face many 
obstacles when trying to flee to these countries. Amnesty International 
is extremely concerned with the lack of freedom of movement and the 
right to seek safe refuge, as well as threatened food security for 
Liberian citizens along with the other human rights abuses before 
mentioned.
Recommendations
    The U.S. must ensure that the United Nations Peace-building Support 
Office (UNOL) in Liberia is activated and substantively strengthened. 
UNOL must deploy more staff to monitor the human rights situation 
throughout the country, including the situation at the borders, and 
maintain a visible and strong international presence to try and help 
create the conditions for free and fair elections due next year.
    Liberia's conflict has been fueled by the government's ability to 
trade in rough diamonds and timber, as well as the easy availability of 
small arms in the region. The U.S. should support enforcement of UN 
sanctions and take effective measures to prevent arms transfers, 
including the exploitation and trade of diamonds and timber which helps 
fund the weapons trade. Such measures should include: strict controls 
and monitoring of international arms brokerage and arms transportation 
by states' own nationals and residents; rigorous procedures to be 
followed when considering applications for arms transfers to countries 
known to have links to Liberia; and effective and transparent controls 
of the diamond industry in the region.
    Adequate humanitarian aid must continue to flow into the country 
and the region, to protect food security and to take steps ensure that 
displaced people are protected and allowed to move freely.

    Senator Feingold. We will start with Ms. Nowrojee. Please 
proceed.

 STATEMENT OF MS. BINAIFER NOWROJEE, SENIOR RESEARCHER, HUMAN 
           RIGHTS WATCH AFRICA DIVISION, NEW YORK, NY

    Ms. Nowrojee. I have been following the human rights 
situation in Liberia since before the civil war in 1989, and 
then through the war looking at human rights violations by 
various rebel groups, and then since the election that brought 
Charles Taylor to power, and I can tell you that Charles Taylor 
runs his government pretty much in the same way as he ran his 
rebel group, which is with lawlessness, a lack of 
accountability, and without respect for human rights or the 
rule of law, and so Liberia is in pretty bad shape at this 
time, and it has only been 5 years since the shaky transition 
to peace began, and the situation is extremely volatile.
    State power is regularly used by high-ranking officials to 
further political objectives of the state, to avoid 
accountability, and for personal enrichment, and the 
institutions in the state that could provide a check on the 
Taylor government such as the judiciary, the legislature, the 
Human Rights Commission, they are all weak and very cowed.
    And then in the north of the country there is the rebel 
incursion, and so the country is back at war, and LURD rebels 
are basically doing hit-and-run attacks in the northwest, 
coming quite close to Monrovia, and in response the government 
has basically been remilitarizing the society, so what you have 
is a situation where ex-combatants are being called up again, 
and you see a proliferation of militia groups that are pretty 
shadowy, hard to know who is controlling them, what their 
numbers are, and so what you see is a return to war, but this 
time the war lord is controlling the state.
    So basically what is happening is, Liberians are basically 
functioning in an environment where there is absolutely no rule 
of law, and so what I was doing in Liberia at the beginning of 
the year was documenting war crimes by both Liberian Government 
forces and rebels, and there are some very serious war crimes 
and human rights abuses going on.
    The government troops that are going up to fight the rebel 
incursion are basically running rampant in terms of violations 
against civilians. What we are seeing are executions, rapes, 
abductions, lootings, burning of villages, and pretty serious 
violations, quite a serious pattern, including people being put 
alive in houses and set alight, civilians, so the government 
forces are behaving completely without any rein, and there is 
no accountability at all.
    And then in the face of rebel action the government of 
Charles Taylor is becoming increasingly intolerant of this, and 
what you see is a state of emergency imposed in February, and 
since then harassment of civil society groups and the 
independent media.
    Additionally, the government supposedly to crack down 
against the rebel incursion is also continuing its illegal flow 
of weapons, so despite the U.N. arms embargo which has been in 
place since 1992, the Taylor government is continuing to 
procure weapons, so there is a documented network of arms 
brokers and transport companies that are providing false 
documents and relying on lax controls in places like Slovakia, 
Moldova, Ukraine, Kyrgyzstan to arrange these illegal weapons 
purchases, and then other countries that are providing cover.
    For instance, in 1999-2000, Burkina Faso and Cote d'Ivoire 
provided false cover for arms shipments destined for Liberia, 
and the illicit flow continues to date. We have evidence that 
shows that a plane that crashed outside Monrovia in February 
2002 carried an illegal military cargo for the government, and 
it was one of three suspicious flights coming from Chad using 
planes fraudulently registered in Moldova, and filing false 
flight plans. When the U.N. investigators went to Liberia they 
were blocked from investigating this crash.
    As has already been mentioned, Liberia's illicit arms 
purchases are often financed through off-budget spending or by 
payments not accounted for in the budget. For example, income 
received by the U.S.-based Liberian International Shipping and 
Corporate Registry was twice used to pay for Liberia's arms 
purchases, and after they refused to engage in the practice as 
of August 2000, other off-budget outlays of maritime funds were 
utilized.
    The U.N. has established that in 1999, a timber company 
paid for an illegal arms shipment, so the recent move by the 
U.N. Security Council to audit the shipping and timber revenues 
is a very welcome step.
    The lawlessness and chaos that is descending on Liberia is 
not just detrimental to Liberia, but also to the subregion. 
These three countries, Liberia, Sierra Leone, and Guinea, their 
conflicts are intertwined. They spill over the borders. The 
alliance has crossed borders, so that the lawlessness in 
Liberia has the potential to up-turn the fragile peace 
established in Sierra Leone.
    Even now, fighters across the Liberia-Sierra Leone border 
are moving hundreds of Sierra Leone ex-combatants who are 
crossing into Liberia to fight as mercenaries for both sides, 
and LURD rebels and Liberian Government troops cross into 
Sierra Leone to loot, to escape fighting, and in some cases to 
abduct people for forced labor, and Liberian Army deserters are 
also found on the Sierra Leone side of the border, where they 
could present an additional security threat.
    LURD is also running a clandestine supply line along that 
border, and there is no consistent policy either on the part of 
the Sierra Leone Government or by the U.N. peacekeepers on how 
to address this problem. Additionally, Guinea, is playing a 
very detrimental role in providing support, logistic, and some 
military support to the LURD rebels, and I think it is 
important to recognize that Charles Taylor bears primary 
responsibility for much of the longstanding aggression and 
violence in the subregion, but at this time it is Guinea that 
is playing a destabilizing role, and that needs to be 
addressed.
    The developing crisis in Liberia, if unchecked, threatens 
to erode the fragile peace and stability that is established in 
Sierra Leone, and may likely destabilize Guinea and the wider 
region, and so it is imperative that the international 
community actually remain engaged in efforts to establish 
conditions for sustainable peace, and here I would like to just 
stress the sustainable, because I think there have been efforts 
to bring peace, and they are always sort of quick and dirty, 
and they move in and out, but they are not sustainable, and it 
has to be done for all three countries in the subregion so all 
of the three governments need to be called on to do several 
things to end cross-border attacks and illicit weapons flows, 
to cease support for armed rebel activity, to respect the rule 
of law and human rights, to prevent and punish war crimes and 
other human rights abuses, and to create state institutions 
that are transparent and accountable, particularly in the state 
security apparatuses.
    Moving to U.S. policy, I would like to just say that U.S. 
pressure on the Liberian Government to address human rights 
abuses has commendably been strong and consistent, and 
relations between the United States and Liberia have 
deteriorated, particularly as President Taylor's role in 
fueling the war in Sierra Leone became more evident, and the 
Bush administration has continued the Clinton policy of 
isolating Taylor politically and diplomatically, although less 
publicly.
    Other initiatives that are in the right direction include 
U.S. support for regional security and peacekeeping. For 
example, the United States has been involved in several 
initiatives to address regional peacekeeping efforts through 
training and equipping of West African peacekeeping battalions. 
Additionally, the United States has played a very constructive 
role in bringing peace to Sierra Leone by concentrating its 
efforts on ending the Liberian Government's support for the RUF 
and by supporting the military actions, peacekeeping actions in 
Sierra Leone, and providing humanitarian assistance.
    The pledge of $15 million over 3 years to the Special Court 
for Sierra Leone was the largest of any contributing nation, so 
the U.S. Government should be proud of that. The Special Court 
in Sierra Leone really can play an important role not only in 
holding Sierra Leonians accountable for human rights 
violations, but also Liberian nationals accountable for their 
role in the Sierra Leone conflict, but there are aspects of 
U.S. policy with regard to Liberia and the subregion that could 
better contribute to the rule of law and respect for human 
rights.
    Pressuring and isolating the Taylor government while 
turning a blind eye to similar abuses by other regional actors 
will not result in sustainable peace to the subregion, so there 
are three things I would like to suggest in terms of improving 
U.S. policy. The first is that U.S. assistance and support to 
Liberia's beleaguered civil society community could be 
stronger, and greater efforts should be made to provide 
independent journalists, human rights activists, and other 
civil society groups with assistance and support for their 
important work.
    The United States has also remained silent on civil rights 
abuses and war crimes being committed by the LURD rebel forces. 
International condemnation could pressure the LURD to address 
abuses against civilians by their fighters.
    The last is, the United States has been silent about 
condemning Guinea's flagging human rights record and its 
destabilization of Liberia. The United States now has an 
important role to play vis-a-vis Guinea's support for the LURD. 
The United States is beginning a long-delayed training program 
of $3 million for the Ghanian military, focusing on border 
security to assist that country in defending its borders 
against Charles Taylor's incursions, and we suggest that our 
U.S. military assistance to Guinea should be conditioned on an 
end to Guinea's support to the LURD.
    Thank you for this opportunity to appear today.
    [The prepared statement of Ms. Nowrojee follows:]

 Prepared Statement of Binaifer Nowrojee, Counsel, Human Rights Watch/
                                 Africa

    Thank you very much for convening these hearings and inviting Human 
Rights Watch to testify. My name is Binaifer Nowrojee. I serve as 
counsel with Human Rights Watch's Africa Division. I have been with the 
organization since 1993. Prior to that, I served as staff attorney on 
Africa for the Lawyers Committee for Human Rights from 1989 to 1992. I 
have been involved in human rights research and advocacy on West Africa 
since 1989.
    After only five years of a shaky transition to peace, the situation 
in Liberia remains fragile and extremely volatile. President Charles 
Taylor's government continues to function without accountability or 
respect for the rule of law, exacerbating the divisions and resentments 
fueled by the seven-year civil war. Due to the misallocation of 
resources, the nation's economy remains in tatters, with some 80 
percent of the workforce unemployed and 80 percent illiteracy. Basic 
services such as health care, communications, electricity, and the 
public supply of drinking water remain limited. Public and private 
institutions continue to deteriorate amid widespread corruption and 
fear.
    Fighting has raged in the country's northwest since the start of a 
rebel incursion in 2000, the fifth serious outbreak of violence since 
the 1997 elections that ended the civil war. Fighters from the rebel 
Liberians United for Reconciliation and Democracy (LURD) continue to 
launch hit-and-run attacks moving steadily towards the capital 
Monrovia. Both Liberian government forces and LURD are responsible for 
committing war crimes and other serious human rights abuses against 
civilians, including summary executions of civilians, rape of girls and 
women, abduction, and looting and burning of villages. Tens of 
thousands of Liberians have been forced to flee their homes. This 
incursion sparked the fifth serious outbreak of violence since the 
national elections of 1997 that ended a seven-year civil war.
    In the face of renewed rebel action, the government of Charles 
Taylor has become increasingly intolerant of dissent. Since imposing a 
state of emergency on February 8, 2002, the government has intensified 
its harassment of civil society groups and the independent media. The 
government is also remilitarizing the society by remobilizing ex-
combatants and allowing the proliferation of militia groups. The 
security forces regularly commit abuses with impunity.
    The spreading conflict in Liberia presents an ominous prospect. The 
lack of respect for the rule of law and human rights by the Taylor 
government makes prospects for sustainable peace in Liberia unlikely. A 
further escalation in repression and human rights abuses against 
civilians can be expected as the area of fighting widens, causing more 
suffering and displacement in Liberia.
    Moreover, the renewal of war in Liberia threatens to further 
undermine prospects for sustainable peace in the wider region, known as 
the Mano River Union, encompassing Guinea, Sierra Leone, and Liberia. 
Over the past decade, the governments of these three countries have 
frequently harbored each other's rebel groups and supported cross-
border incursions, causing widespread instability. Charles Taylor, both 
as leader of the former rebel group known as the National Patriotic 
Front of Liberia (NPFL) and as president of Liberia since 1997, bears 
primary responsibility for much of the long-standing aggression and 
violence in the sub-region, both in Liberia and in particular through 
his support for the Revolutionary United Front (RUF) in Sierra Leone. 
The renewed war in Liberia could easily destabilize the fragile peace 
in Sierra Leone as a result of a spillover of the Liberian war, as 
growing numbers of Liberian refugees and combatants cross into 
neighboring countries. At this time, the government of Guinea is also 
playing a destabilizing role in providing considerable logistical and 
some military support to the LURD rebels that operate from Guinea. 
Guinea's support to the LURD intensified after the Liberian government, 
assisted by Sierra Leonean rebel fighters and Guinean dissidents, 
launched a series of cross-border attacks into Guinea in late 2000 and 
early 2001.
    The escalating conflict and repression in Liberia, and the 
possibility of a spillover into neighboring countries, is a dire 
prospect indeed for the people of a region that has already endured so 
much war, wanton abuse and human suffering over more than a decade.
   executive control, lack of accountability, and personal enrichment
    Since taking office, President Taylor has steadily consolidated and 
centralized power by rewarding loyalists and intimidating critics. One 
of President Taylor's often repeated statements is that Liberia is a 
country of laws, not of men. However, an examination of his record 
illustrates the opposite. Political appointees are selected on the 
basis of their loyalty to Charles Taylor. Ruling party officials are 
able to behave with impunity as long as they are compliant to the 
executive. In addition to loyalists from the war, Taylor has appointed 
numerous family members to key government positions.
    State power is regularly misused by high-ranking officials to 
further the political objectives of the executive branch, to avoid 
accountability, and for personal enrichment. State institutions that 
could provide an independent check on the Taylor administration, such 
as the judiciary, the legislature, the human rights commission, and the 
commission on reconciliation, remain weak and cowed. In particular, the 
National Human Rights Commission, created by the government in 1997, 
suffers from a lack of qualified personnel, inadequate funding and a 
flawed mandate. Independent voices in the media and the human rights 
community are steadily being silenced.
    President Taylor has used state power to personally enrich himself 
and his inner circle, and to support the state security apparatus that 
protects him. A Strategic Commodities Act reportedly passed secretly in 
2000 gave President Taylor ``the sole power to execute, negotiate and 
conclude all commercial contracts or agreements with any foreign or 
domestic investor'' for designated commodities, including timber and 
diamonds.
    Despite being subject to a United Nations (U.N.) arms embargo 
continuously since 1992, the Taylor government continues to procure 
weapons. In some cases, the weapons were forwarded to RUF rebels in 
Sierra Leone, breaking a second embargo. U.N. investigators have 
documented a network of arms brokers and transport companies that 
provided false documents and relied on lax controls in Slovakia, 
Moldova, Ukraine, and Kyrgyzstan to arrange illegal weapons purchases. 
In 1999 and 2000, respectively, Burkina Faso and Cote d'Ivoire 
knowingly provided false cover for arms shipments destined to Liberia. 
The illicit flow of arms to Liberia continues. Evidence strongly 
suggests that a plane that crashed outside Monrovia in February 2002 
carried an illegal military cargo for the Taylor government. The flight 
was one of three suspicious flights from Chad, using planes 
fraudulently registered in Moldova and filing false flight plans. U.N. 
investigators were blocked from investigating the crash.
    Liberia's illicit arms purchases are often financed through off-
budget spending, or payments not accounted for in the budget. For 
example, income received by the United States-based Liberian 
International Shipping and Corporate Registry (LISCR) was twice used to 
pay for Liberia's arms purchases. After LISCR refused to engage in the 
practice, as of August 2000, other off-budget outlays of maritime funds 
were utilized. U.N. investigations also established that in 1999 a 
timber company paid for an illegal arms shipment. In an important and 
welcome move, the U.N. Security Council recently ordered Liberia to 
audit its shipping and timber revenue to ensure that the funds are no 
longer misused.
          the state security apparatus: an impediment to peace
    One of the major problems in Liberia under President Taylor is the 
complete impunity with which his security and police forces operate. 
Following his inauguration, President Taylor rejected the peace accord 
provision that provided for an open and transparent restructuring of 
the security forces by the West African peacekeeping force. Instead, 
former Taylor faction fighters were placed in the security and police 
forces without serious efforts to provide training or to meet pledges 
to incorporate members from the other factions. Former Taylor fighters 
have also been permitted by the government to create security firms for 
hire by private sector companies.
    One of the most important steps for Liberia's reconstruction after 
the seven-year-long civil war ended in 1997 was to have been the 
restructuring and retraining of the country's armed forces and law 
enforcement agencies. The existing Armed Forces of Liberia (AFL) had a 
long history of abusing human rights both before and during the civil 
war, and there were thousands of excombatants from all sides in the war 
to be demobilized and reintegrated into society.\1\ Under the Abuja 
Peace Accords that signaled the end of the conflict, the restructuring 
was to have been conducted by the Nigerian-led West African 
peacekeeping force ECOMOG (the Economic Community of West African 
States Monitoring Group), and the newly reconstituted Liberian armed 
forces and police were to be drawn from all the disbanded factions.
---------------------------------------------------------------------------
    \1\ The six factions of the seven-year civil war in Liberia were: 
the National Patriotic Front of Liberia (NPFL) headed by Charles 
Taylor; the former government Armed Forces of Liberia (AFL); two rival 
factions of the United Liberation Movement for Democracy in Liberia 
(ULIMO), one led by Al-Haji Kromah representing ethnic Mandingo 
interests, and the other headed by Roosevelt Johnson representing 
ethnic Krabn interests; the Liberia Peace Council (LPC); and the Lofa 
Defence Force (LDF).
---------------------------------------------------------------------------
    However, one of President Taylor's first policy decisions was to 
refuse to allow ECOMOG to be involved in this process. Instead, he 
reconstituted the security and police forces using his own ex-
combatants, purged and marginalized troops from the existing AFL that 
had opposed him during the war, and created new security forces that 
reported directly to him. Liberians began to have problems with the new 
security and police forces almost immediately.
    Shortly after his inauguration in 1997, President Taylor created 
two elite paramilitary security forces, the Anti-Terrorist Unit (ATU) 
and the Special Security Service (SSS); these units report directly to 
Taylor and commit abuses with impunity. Neither of these forces is 
established by law, nor are their operational costs included in the 
state budget. There is no effective mechanism for victims of abuse by 
these forces to lodge a complaint with any government structure and 
obtain redress. Both forces have become notorious for abuses, including 
abuse of civilians, extortion, and looting. There have also been 
reports of extrajudicial killings and torture by the ATU, particularly 
at its base at Gbatala. Victims of torture by the ATU have been held in 
water-filled holes in the ground, burned with molten plastic, beaten 
and sexually abused, and forced to drink urine and eat cigarette butts. 
Additionally, within the Liberian National Police, headed by Paul 
Mulbah, an elite Special Operations Division (SOD) was created after 
Taylor came into office, made up largely of former Taylor-faction 
fighters; this police unit has also been responsible for arbitrary 
arrests, mistreatment, and extortion.
    The Ministry of Defense, headed by Daniel Chea, oversees the now 
marginalized AFL, but also appears to have some measure of control over 
militia groups. Although it has had some new recruits, the AFL still 
includes many soldiers who served under the government of former 
president Samuel Doe (1980-1989), perhaps to secure their loyalty to 
the Taylor government. For that reason, the AFL is not fully trusted by 
the government, and its soldiers are neither well equipped nor 
regularly paid. Even so, the AFL remains the largest government 
fighting force, and the Taylor government has sent a large number of 
AFL troops to oppose the rebel incursion. These soldiers are 
effectively given free rein to pay themselves through looting.
    Since the LURD incursion began, new militia groups have been 
proliferating, whose numbers, structures, and leaders remain unclear. 
Both the AFL command and Ministry of Defense officials told Human 
Rights Watch that the Taylor government's frontline troops are drawn 
not only from the AFL but increasingly include militia groups largely 
made up of remobilized men who fought with Charles Taylor's NPFL during 
the civil war. Hundreds of former combatants, many of them originally 
recruited as children, are being regrouped, organized, and supported by 
Taylor's former commanders. The militia groups are also believed to 
include former members of Sierra Leone's RUF rebel group, many of whom 
crossed into Liberia during and after the disarmament process in Sierra 
Leone.
    The various security agencies and militia groups have extensive 
powers, poorly defined mandates, and overlapping functions. This 
situation has resulted in a jockeying for power between the various 
groups and a complete lack of accountability. The state security 
apparatus as it exists today in Liberia undermines any possibility of 
respect for human rights and the consolidation of peace in Liberia.
war crimes and serious human rights abuses by the state security forces
    In combating the LURD incursion, Liberian government forces and 
militias have committed widespread abuses against civilians, 
particularly in Lofa and Cape Mount counties in the country's 
northwest. These forces include the AFL, ATU, and various militia 
groups. The abuses usually follow a similar pattern. After driving LURD 
forces from an area, government forces hunt down and detain local 
people whom they find hiding in the bush, including civilians. Those 
they suspect of supporting the LURD are then beaten, tortured, or 
summarily executed, in some cases by being confined in houses that the 
soldiers set on fire, burning the victims to death. Young women and 
girls are often raped and forced to become ``wives'' to the soldiers; 
young men are subjected to forced labor, being made to carry looted 
goods and captured weapons; and villages are systematically razed to 
the ground. Government forces violently round up civilians fleeing from 
the fighting, and separate and conscript young men in a manner which 
violates human rights. Sometimes those conscripted include boys. The 
conscripts are then sent to the front, often without any proper 
training. In February 2002, after President Taylor accused people in 
certain areas of Monrovia of harboring rebels, the Special Operations 
Division (SOD) police conducted house-to-house searches, systematically 
rounding up men. Hundreds of young men, and in a few cases boys, were 
arbitrarily detained, beaten, and accused of being rebel supporters. 
Many were given the choice of paying a bribe or being sent to the war 
front. Some who could not pay were forcibly recruited.
    Government soldiers and militias have also been responsible for 
widespread looting, both in towns and villages that they occupied and 
at checkpoints on the roads. Local residents are often forced to carry 
looted belongings and captured weapons long distances by the army. As 
civilians flee conflict areas, they are repeatedly made to pay 
government soldiers in order to pass through checkpoints to safety, and 
in order to cross the border into Sierra Leone.
    crackdown against the independent media and civil society groups
    In the face of renewed rebel action, the Taylor government has 
become increasingly intolerant of dissent. Since the imposition of a 
state of emergency in February 2002, the government has intensified its 
harassment and intimidation of the independent press, civil society 
groups, and legitimate political opposition groups who have been 
imprisoned, harassed, beaten and in a few cases, killed.

  <bullet> Journalists Stanley Seekor, J. James, and Ellis Togba from 
        The Analyst newspaper were threatened and briefly detained 
        after their newspaper published an article discussing the state 
        of emergency.

  <bullet> The authorities also detained Frances Johnson Morris, 
        director of Liberia's Catholic Justice and Peace Commission, 
        for several hours among male inmates at the police prison at 
        the Police Headquarters in Monrovia ostensibly on grounds of 
        ``mistaken identity'' only days after she had made a public 
        presentation questioning the state of emergency.

  <bullet> On March 27, Nipla Wiaplah, chair of the New Deal Movement 
        party, was held for several days in police custody without 
        charge as police determined whether an article in The News that 
        he had authored on the war posed a national security threat. 
        The News editor-in-chief Jerome Dalieh and acting news editor 
        Bill Jarkloh were also held briefly without charge for 
        publishing the article.

  <bullet> After the National Human Rights Center of Liberia, an 
        umbrella organization comprising nine nongovernmental human 
        rights groups, issued several press releases protesting 
        government abuses, five of its members--Aloysius Toe, Tunny 
        Zeogar, Peter Nickoson, John Okai, and Sam Nimely--were 
        arrested on March 28 and held without charge for several days. 
        Although they were released after a court order was filed, they 
        were rearrested shortly after, and charged with ``criminal 
        malevolence'' and ``preventing arrest and discharge of other 
        duties.''

  <bullet> Augustine Toe of the Justice and Peace Commission was 
        arrested on March 28 and held without charge for several hours.

  <bullet> On April 24, human rights lawyer Tiawan Gongloe was arrested 
        without charge by the police, and beaten so severely that he 
        was unable to stand and required hospitalization. He had been 
        speaking out against security force abuses and other human 
        rights violations. The Analyst newspaper, which had just 
        reported on a statement recently made by Gongloe at a 
        conference on peace in the Mano River Union, was ordered 
        closed.

    Disturbingly, the conflict also has taken on an ethnic dimension, 
with the Taylor government indiscriminately accusing ethnic Mandingo, 
Krahn, and Gbandi citizens of Liberia of supporting the rebel 
incursion. Members of these groups, as a result, face growing 
discrimination, arbitrary arrests, and violence at the hands of the 
government and its supporters, based on their ethnicity. Many LURD 
fighters are ethnic Mandingo or Krahn. As a result, other ethnic 
Mandingos and Krahns, as well as ethnic Gbandis, are clearly considered 
suspect by the government and have been accused of being rebel 
supporters. For their part, LURD forces have committed some of their 
worst abuses against ethnic Kissi civilians, perhaps because the RUF 
rebel group in Sierra Leone, which had a longstanding alliance with the 
Taylor government, formerly had its stronghold in an ethnic Kissi area 
in Sierra Leone.
        prospects for sustainable peace in the mano river union
    Prospects for sustainable peace in Sierra Leone, Liberia, and 
Guinea remain tenuous as the intertwined conflicts continue to spill 
over the borders, offsetting gains that are made in each country to 
restore calm. As Sierra Leone's brutal conflict comes to an end, 
violence and insecurity are rapidly escalating in Liberia. At this 
time, Guinea is playing a destabilizing role in providing support to 
the Liberian rebels.
    The conflicts of the Mano River Union countries, encompassing 
Sierra Leone, Liberia and Guinea, have shown a ready potential to 
overflow and destabilize each other. A long-standing web of shifting 
military and political alliances exists among the three governments and 
the various armed opposition groups. Accountability for serious abuses 
is practically nonexistent, and military impunity in all three 
countries remains a serious problem. The area is also awash with 
hundreds of ex-combatants willing to cross over to any side as 
mercenaries.
          the liberian conflict and the impact on sierra leone
    For years, Charles Taylor helped fuel the Sierra Leonean conflict 
through his arming and support of the RUF rebels, as well as 
facilitation of illegal diamond exports from rebel-controlled areas. In 
return, when Taylor's government came under armed attack from Liberian 
dissidents in 1999, 2000 and 2001, RUF forces assisted in expelling 
them from Liberia.
    The escalating conflict and growing lawlessness in Liberia has the 
potential to upturn the fragile peace in Sierra Leone. Fighters from 
all sides are moving across the Sierra Leonean/Liberia border: Hundreds 
of Sierra Leonean ex-combatants are crossing into Liberia to fight as 
mercenaries. Liberian government troops and LURD rebel soldiers are 
crossing into Sierra Leone to loot or escape fighting, and, in a few 
cases, to abduct people for forced labor. Liberian army deserters are 
also to be found on the Sierra Leone side of the border, where they 
could present an additional security threat. LURD forces operating from 
Sierra Leone are clandestinely recruiting and operating a supply line 
along the border. There appears to be no consistent policy on the part 
of either the Sierra Leonean government or the UNAMSIL peacekeepers on 
how to address this problem.
    In view of the close links between the Guinean government and the 
LURD rebel forces in Liberia, the participation of Guinean troops in 
UNAMSIL should also give cause for concern. The Guinea contingent of 
UNAMSIL is currently deployed at the Sierra Leone/Liberia border, 
raising fears that this area too could become a base of operations for 
the LURD. At a minimum, these Guinea battalions removed from the border 
where the likelihood of their involvement in Liberian rebel support or 
refugee intimidation is higher. Ideally, they should be replaced 
completely.
    There is an urgent need for border security to be strengthened, 
including screening to ensure that combatants are clearly distinguished 
and separated from civilians seeking refugee protection in Sierra 
Leone. The Sierra Leonean government needs to establish an adequate 
police presence along the border areas, and to establish a status 
determination body to screen combatants from refugees. Additionally, 
there is a need for improved policing to ensure that refugees are 
adequately protected and to guarantee the civilian nature of all 
refugee camps. The United Nations High Commissioner for Refugees should 
ensure as a priority the civilian nature of the refugee camps, increase 
the number of international protection staff, and work closely with 
neighboring host governments to establish screening mechanisms at the 
border to separate Liberian combatants from refugees.
              the role of guinea in destabilizing liberia
    At this time, the government of Guinea is playing a destabilizing 
role in providing considerable logistical and some military support to 
the Liberian rebels that operate from Guinea. Evidence indicates that 
this support is being given with the knowledge and support of high-
ranking Guinean officials, including the president.
    Domestically, President Lansana Conte remains largely intolerant of 
opposition and turns a blind eye to frequent abuses by his security 
forces. A November 2001 constitutional referendum that removed a two-
term limit on the presidency, and virtually ensures him of lifetime 
rule, is widely believed to have been manipulated in his favor.
    Guinea's support to the LURD intensified after the Liberian 
government, assisted by Sierra Leonean rebel fighters and Guinean 
dissidents, launched a series of cross-border attacks into Guinea in 
late 2000 and early 2001. They attacked towns and refugees camps 
containing Sierra Leonean and Liberian refugees, causing thousands to 
become further displaced and killing and wounding hundreds of refugees 
and Guinean civilians. These Liberian-led incursions into Guinea were 
opposed by Guinean government forces, backed by members of Sierra 
Leonean civil defense force militias and Guinea-based LURD fighters. 
They pushed back the Liberian and RUF forces, and the Guinean army also 
carried out helicopter, artillery and ground attacks into RUF-held 
areas of northern Sierra Leone, killing scores of civilians and burning 
villages.
    In view of the close links between the Guinean government and the 
LURD rebel forces in Liberia, the participation of Guinean troops in 
the U.N. peacekeeping mission in Sierra Leone, UNAMSIL, should give 
cause for concern. The Guinean contingent of UNAMSIL is currently 
deployed in Sierra Leone's Pujehun District, which borders Liberia, 
raising fears that this area too could become a base of operations for 
the LURD, enabling them to strike into Liberia from two directions. The 
Guinean forces in the UNAMSIL operation in Sierra Leone should be 
replaced with non-West African troops that are not implicated in the 
sub-regional conflict. At a minimum, the Guinea battalions should be 
removed from Pujehun District, and not be deployed near the Sierra 
Leone/Liberia border where the likelihood of their involvement in 
Liberian rebel support and/or refugee intimidation is higher.
                the role of the international community
    With Liberia again on the brink of collapse, it is vital that the 
international community make a much more concerted effort to prevent 
the war spreading and the emergence of yet another human rights 
catastrophe in West Africa. The developing crisis in Liberia, if 
unchecked and unresolved, threatens to erode the fragile peace and 
stability so painstakingly established in Sierra Leone, and may likely 
destabilize Guinea and the wider region.
    During the past decade, the international community's interventions 
in Liberia, largely under the auspices of the U.N. and ECOWAS, have 
repeatedly focused on restoring a short-term peace, without adequately 
addressing the long-term causes of the war, including continuing 
impunity for gross human rights abuses and blatant disregard for the 
rule of law in Liberia.
    Examples abound, including the following: During the pre-1997 civil 
war, ECOMOG forces in Liberia actively contributed to the proliferation 
of the anti-Taylor rebel factions that were themselves responsible for 
serious abuses and are resurfacing today, including among the LURD 
combatants; the U.N. presence in Liberia during the war was limited to 
a small observer mission without adequate authority to address regional 
political interference or abuses by ECOMOG or by Liberian government or 
rebel forces; the U.N. backed a peace accord that granted a blanket 
amnesty to faction fighters and did not create any international 
mechanism to hold violators accountable; fearful of a return to active 
fighting, the U.N. rushed to hold the 1997 national elections before 
important provisions of the peace accord were implemented, including 
the restructuring of the security forces and the return of refugees; 
since the 1997 election, the U.N. Peace-Building Support Office in 
Liberia (UNOL) has remained silent on the continued erosion of the rule 
of law by the Taylor government.
    International engagement and action is urgently required and should 
address both the Taylor government's abusive security apparatus and 
domestic repression, as well as the regional nature of the conflict. 
The international community must engage in comprehensive efforts to 
establish conditions for a sustainable peace and the protection of 
human rights in all three countries in the Mano River Union. All the 
Mano River Union governments should be called on to: (1) End cross-
border attacks and illicit weapons flows; (2) Cease support for armed 
rebel activity; (3) Respect the rule of law and human rights; (4) 
Prevent and punish war crimes and other human rights abuses; and to (5) 
Create state institutions that are transparent and accountable, 
particularly the state security apparatus.
                              u.s. policy
    For the past few years, United States (U.S.) pressure on the 
Liberian government to address human rights abuses has commendably been 
strong and consistent. Relations between the U.S. and Liberia 
deteriorated as President Taylor's role in fueling the war in Sierra 
Leone became more evident. In accordance with the U.N. sanctions 
imposed in May 2001, the U.S. prohibited the importation of Liberian 
rough diamonds. The Bush administration continued the Clinton policy of 
isolating Taylor politically and diplomatically, although less 
publicly. Administration officials have stressed that until Taylor 
ceases efforts to destabilize the sub-region, U.S. policy will remain 
unchanged.
    Other initiatives that are in the right direction include U.S. 
support for regional security and peace-keeping efforts. In 2000, a 
program called Operation Focus Relief (OFR) was initiated by former 
President Bill Clinton to train and equip seven battalions of West 
African troops for peacekeeping with the U.N. in Sierra Leone. The 
training was conducted by U.S. Special Forces. The first phase of the 
program trained two Nigerian battalions that were deployed in January 
2001 to serve with UNAMSIL. The second phase, which ended in August, 
trained troops from Ghana and Senegal. The third phase, involved three 
further Nigerian battalions. For FY 2001, OFR was budgeted at U.S. $24 
million in peacekeeping funds, as well as U.S. $32 million in 
Department of Defense funds for equipment and transportation. The U.S. 
also deployed three military officers to work with the Sierra Leone 
army as part of the British training program. These officers, as well 
as other U.S. Embassy officials, had some responsibility for monitoring 
the performance of the U.S.-trained troops. In addition, for fiscal 
year 2002, Congress approved U.S. $26 million for the West African 
Stabilization Program, part of the U.S.'s voluntary peacekeeping 
operations budget, which includes $8 million in additional training and 
equipment for the troops trained for peacekeeping in Sierra Leone, 
known as Operation Focus Relief.
    Additionally, the U.S. has played a constructive role in bringing 
peace to Sierra Leone by concentrating its efforts on ending Liberian 
government support for the RUF, supporting the British-led military 
actions in Sierra Leone, and providing humanitarian assistance. The 
pledge of U.S. $15 million over three years to the proposed Special 
Court for Sierra Leone was the largest of any contributing nation.
    However, there are three aspects to U.S. policy with regard to 
Liberia and the sub-region that could contribute towards the rule of 
law and respect for human rights:

  <bullet> U.S. assistance and support to Liberia's beleaguered civil 
        society community could be stronger. Greater efforts should be 
        made to provide independent journalists, human rights 
        activists, and other civil society groups with assistance and 
        support for their important work;

  <bullet> The U.S. has remained silent on human rights abuses and war 
        crimes being committed by the LURD rebel forces. International 
        condemnation could pressure the LURD to address abuses against 
        civilians by their fighters.

  <bullet> The U.S. has been much less consistent or vocal about 
        condemning Guinea's flagging human rights record and its 
        destabilization of Liberia. The U.S. now has an important role 
        to play vis-a-vis Guinea's support for the LURD. The U.S. is 
        beginning a long-delayed training program of U.S. $3 million 
        for the Guinean military, focusing on securing border security 
        to assist that country in defending against the destabilizing 
        activities of the RUF and Charles Taylor in Liberia. In June 
        2001, the Bush administration notified Congress of its 
        intention to provide U.S. $3 million in non-lethal training and 
        equipment to the Guinean military to assist that country in 
        defending against the destabilizing activities of the RUF and 
        Charles Taylor in Liberia. Congressional concerns about abuses 
        by the Guinean military led to additional reporting and 
        monitoring requirements. The training is designed in four six-
        week segments for four companies, but will pause after the 
        first two to conduct an impact assessment, which will include 
        monitoring of the troops' behavior once they are deployed on 
        the border, as well as a human rights assessment. All U.S. 
        military assistance to Guinea should be conditioned on an end 
        to Guinean support for the LURD rebels.
                            recommendations
    <bullet> Human Rights Watch urges the U.S. government to bring 
consistent pressure on all the Mano River Union countries to: (1) End 
cross-border attacks and illicit weapons flows; (2) Cease support for 
armed rebel activity; (3) Respect the rule of law and human rights; (4) 
Prevent and punish war crimes and other human rights abuses; and to (5) 
Create state institutions that are transparent and accountable, 
particularly the state security apparatus.
    <bullet> Continue to sustain attention on institution building that 
promotes respect for the rule of law and human rights, including the 
Special Court in Sierra Leone that can examine crimes committed by 
Liberian nationals in the context of the Sierra Leonean civil war.
    <bullet> Put pressure on the LUTRD rebels to cease committing human 
rights abuses and war crimes against civilians.
    <bullet> Provide greater support to civil society groups and the 
independent media in the Mano River Union.
    <bullet> Condition all U.S. military assistance to Guinea, 
scheduled to begin in May 2002, on an end to Guinean support for the 
LURD rebels.
    <bullet> Continue to call for the maintaining and strengthening of 
existing U.N.-mandated controls on the flow of weapons that could 
destabilize the sub-region, and to establish the mechanisms necessary 
to break the cycle of impunity. Illicit weapons flows into the sub-
region should continue to be monitored, and Guinea's role in the 
Liberian conflict should be investigated and ended. The U.S. should 
call for the U.N. to mandate the placement of international military 
observers and human rights monitors along the Guinea/Liberia and Sierra 
Leone/Liberia borders to monitor and investigate cross-border attacks.
    <bullet> Advocate for the replacement of the Guinean forces in the 
UNAMSIL operation in Sierra Leone with non-West African troops that are 
not implicated in the sub-regional conflict. At a minimum, the Guinea 
battalions should not be deployed near the Sierra Leone/Liberia border 
where the likelihood of their involvement in Liberian rebel support 
and/or refugee intimidation is higher. Work to secure and get 
commitments for the deployment of an adequate number of troops along 
the Sierra Leone/Liberia border to prevent cross-border attacks.

    Senator Feingold. Thank you for that helpful testimony. We 
now turn to Ms. Anderson.

 STATEMENT OF MS. RORY E. ANDERSON, AFRICA POLICY SPECIALIST, 
               WORLD VISION U.S., WASHINGTON, DC

    Ms. Anderson. Thank you, Mr. Chairman, for the opportunity 
to present testimony before the subcommittee on U.S. policy 
options in Liberia. Again, World Vision is in 95 different 
countries, and we have been an active relief agency in Liberia 
for the past 15 years. I visited Liberia and Sierra Leone less 
than a year ago and traveled extensively throughout each 
country, and much of what I will discuss today are things I 
have actually witnessed myself.
    As an active relief agency on the ground in Liberia, we at 
World Vision see that there are direct and immediate linkages 
between humanitarian crises involving large-scale population 
displacement and economic collapse to political and regional 
instability. Fear of violence is the most common reason why 
people flee their homes to seek safety elsewhere. In a region 
that has seen sustained violence and instability, the rise of 
human displacement in Liberia reinforces cycles of volatility.
    As of the first week of June 2000, current figures on 
accessible, internally displaced persons in Liberia have 
reached over 176,000 people. Refugee statistics are less 
definitive, largely due to border insecurity in both Guinea and 
Sierra Leone, but the recent and rough estimates I have heard 
is that as of January of this year there have been about 35,000 
refugees which have flown to neighboring countries, and in 2001 
there were over 80,000 refugees, so with the increased fighting 
we can imagine that there are even greater than 35,000 
refugees, along with the 80,000 that already existed, and women 
and dependent children generally comprise more than 80 percent 
of refugees and displaced persons.
    The United Nations has said that in humanitarian disasters 
they bear a disproportionate share of the suffering. Refugee 
women must provide for their children in an atmosphere in which 
their security is threatened, and the likelihood of sexual 
violence is increased.
    The violence between government forces--that is, the 
Government of Liberia and rebel insurgents, again known as the 
Liberians United for Reconciliation and Democracy, or the LURD, 
as was referred to earlier, has been the chief cause for the 
current Liberian displacement. Population displacement of this 
magnitude creates instability in the following three ways. 
First, it creates economic collapse, and in an agrarian society 
such as Liberia, removal from entitled land creates 
unemployment. That is, farmers who once cultivated their own 
land now have no land to farm, as well as a serious food 
security crisis. Farmers can no longer produce food and they 
have no gainful employment to purchase food. The production of 
rice, the main staple in Liberia, has been estimated by the 
U.N. Food and Agricultural Organization to meet only a third of 
the country's requirements right now.
    The second cause for instability is that host communities 
and displaced people compete and sometimes conflict over scarce 
resources. Host communities that are already on the economic 
margins now have to compete with a large influx of outsiders. 
Again, earlier, as I stated, there are over 176,000 internally 
displaced within Liberia alone, so you have a large influx of 
outsiders throughout the country who also need access to scarce 
resources of land, health care, and education.
    Tensions can be further exacerbated between host 
communities and displaced populations when ethnic or political 
differences engender conflict. With lack of adequate aid, 
stable communities can quickly become part of a conflict and 
instability as well as a swelling population competes for 
limited resources. Environmental destruction also occurs as a 
result of the concentrated population in search of firewood and 
construction material.
    A third cause for instability with large population 
displacement is that combatants often infiltrate camps. The 
majority of displaced persons live in camps, which should 
provide adequate levels of food, shelter, health care, and 
protection. However, camps can become another source of 
instability, because they often become havens for armed groups 
who can easily hide weapons and infiltrate camps to receive 
food and medical care. The presence of combatants make 
noncombatants targets for attacks by warring parties outside of 
the camp, and their presence inside the camps also increases 
the rate of sexual violence and forced conscription, 
particularly of child soldiers.
    The humanitarian crisis in Liberia is currently unfolding 
in a cycle of violence, local economic collapse, and large 
displacements of the population, as I have just described. 
These are symptoms of the following six regional trends within 
the Mano River Union itself, the first being displaced, 
unemployed, and mostly illiterate youth are vulnerable to 
military recruitment both by state and non-state actors 
throughout the region. These child soldiers often become the 
most brutal perpetrators of violent acts, as we saw with the 
RUF in Sierra Leone.
    A second regional trend is that we are seeing the illegal 
mismanagement of natural resources, especially of diamonds and 
timber, which draws largely upon unemployed adult populations 
where there is an absence of viable economies, or credible 
industries, or viable civil service.
    The third point for regional trends is, we are seeing a 
militarization of formerly noncombatant communities as they 
compete over scarce resources. This makes them pawns for 
political actors ready to capitalize on ethnic or regional 
differences and further widens regional violence.
    The fourth regional trend is that the trafficking of small 
arms in an unstable environment becomes a guaranteed source of 
power and income through banditry and further exploitation and 
trafficking of conflict diamonds, conflict timber, and other 
resources.
    A fifth regional trend that, as reflected in the rise, and 
in the number and the degree of brutal acts of torture, rape, 
harassment, and executions perpetrated against civilians, 
especially women and children, and all of this foments 
instability and sews the seeds for social discord and social 
and economic collapse.
    Finally, a sixth regional trend that we are seeing within 
the whole Mano River Union is that there is a deterioration of 
basic infrastructure and services due to perpetual cycles of 
instability and violence, and this makes resettlement of 
displaced populations and the restoration of economic activity 
like trade in agriculture very difficult. U.N. agencies such as 
the U.N. High Commission for Refugees and the World Food 
Program are exhausting all of their resources, and they cannot 
stretch their resources any further.
    Now, despite the expansion of a regional humanitarian 
crisis and all of these regional trends that I have just laid 
out in the Mano River Union, U.S. humanitarian assistance to 
Liberia has actually declined by 82 percent in just the past 5 
years. In 1998, total U.S. Government assistance to Liberia, 
including food aid, was $37.7 million. It has now decreased to 
$6.5 million in fiscal year 2002.
    This drastic decline in humanitarian assistance 
demonstrates two unfortunate trends, the first being that 
humanitarian assistance in the Mano River Union is a zero-sum 
game, which means that there are only winners and losers. We 
take from Liberia and give to Sierra Leone, rather than having 
a balanced, regional approach to humanitarian assistance, and 
second, policymakers in the United States and elsewhere have 
incorrectly politicized humanitarian assistance to Liberia.
    Instead, it is better to separate our humanitarian 
assistance goals from our political strategy in dealing with 
Charles Taylor. As the chairman just referred to, pressuring 
Taylor alone is not the only policy that we need to have, but 
we need to separate our two policies and be very clear about 
that. Humanitarian assistance, especially when it is channeled 
through the local international relief agencies has proven to 
be a strong tool for building a strong civil society that can 
democratically challenge the political establishment, while 
rebuilding societies and economies damaged by war.
    This is not a quick fix. These types of investments are 
long- and medium-term, with long-term payoffs. Starving an 
already volatile region or unevenly distributing aid, and 
again, that is investing in Sierra Leone and not in Liberia or 
Guinea, simply creates a merry-go-round of violence and 
displacement, shifting war from one country to the next.
    Mr. Chairman, in offering concluding observations and 
recommendations, World Vision sees that increased violence 
between the Government of Liberia and the LURD has caused 
severe displacement in Liberia and could eventually disrupt the 
fragile peace in Sierra Leone as displaced Liberians seek 
asylum there. Sierra Leone itself has recently emerged from an 
11-year conflict, and an influx of Liberian refugees, as well 
as combatants competing for resources, has the potential of 
widening the Liberian conflict and sending Sierra Leone back 
into war. We do know that more war in the Mano River Union is 
not going to resolve the existing war.
    I would give, again, two recommendations, again a unified 
and serious diplomatic initiative, especially led by the United 
States and the United Kingdom, and also involving the French, 
as they have significant influence with Guinea. All of these 
allies have already demonstrated effective diplomatic 
leadership in Sierra Leone, and they should continue by 
initiating some sort of mechanism to channel whatever 
compromises Charles Taylor and other combatants may be willing 
to make into a process that is much more constructive than 
conflict.
    Second, humanitarian assistance to the region should also 
increase to diffuse the potential for conflict within 
communities and among the Mano River Union nations.
    Over the past 2 years, World Vision and other agencies have 
seen an increase in aid to Sierra Leone, but there has been a 
rapid decrease in aid to Liberia, which ultimately undermines 
the total U.S. Government investment in the region. Again, the 
total U.S. Government assistance to Liberia went from $37 
million in 1998 to $6\1/2\ million in fiscal year 2002 and 
again, that was an 82 percent decrease in just 5 years. The 
rapid decline and current restructuring of U.S. Government 
assistance is forcing World Vision and other international aid 
agencies to completely close down operations and more than 
likely by the end of the year World Vision will have to pull 
out.
    Declining humanitarian assistance does not affect political 
change, but rather gives incentives for conflict and 
instability over scarce resources. Sustained diplomatic 
leadership, coupled with increased and evenly disbursed 
humanitarian assistance among all three of the Mano River Union 
countries will bring long-term stability that will eventually 
give way to indigenous political change in Liberia, which will 
provide a peace dividend for the entire Mano River Union.
    Thank you, Mr. Chairman, for the opportunity to present 
this testimony.
    [The prepared statement of Ms. Anderson follows:]

 Prepared Statement of Rory E. Anderson, African Policy Advisor, World 
                              Vision U.S.

                              introduction
    Thank you, Mr. Chairman, for the opportunity to present testimony 
to the Senate Subcommittee on Africa on the humanitarian situation and 
U.S. policy options in Liberia. My name is Rory Anderson, Africa Policy 
Advisor for World Vision, one of the largest, privately-funded 
international relief and development organizations in the U.S. 
Currently, World Vision implements more than 6,000 relief, 
rehabilitation and long-term development projects in 95 countries, and 
we have had an active presence in Liberia for almost 15 years.
                             i. background
Mano River Region
    Since the late 1980s, sustained conflict in the Mano River basin 
has spread across borders and engulfed the region, culminating in a 
severe humanitarian crisis and sustained political instability. 
Internal wars in Liberia and Sierra Leone in the early 1990s led to the 
exodus of more than one million refugees to Cote d'Ivoire and Guinea 
over the course of the decade. In addition to refugees, an estimated 
one to two million people in the region have been internally displaced 
at the height of the various conflicts. Although Guinea, Liberia, and 
Sierra Leone formed the Mano River Union economic pact in 1973, the 
conflicts of the past decade have severely strained political and 
economic relations between the three states. A struggle for control of 
diamond fields in Sierra Leone has been central to the crisis in recent 
years. Several failed peace accords and peacekeeping efforts, collapsed 
economies, and some of the worst human rights atrocities in recent 
history has made the Mano River crisis one of the world's most severe 
humanitarian disasters. Although 2001 brought improved security to 
Guinea and Sierra Leone,.an upsurge in fighting in Liberia continues to 
threaten the stability of the entire region. The U.N. Office for the 
Coordination of Humanitarian Affairs (OCHA) estimates that 1.1 million 
of the 15 million inhabitants of Guinea, Liberia, and Sierra Leone 
continue to be either internally displaced persons (IDPs) or refugees.
Liberia
    Civil war in Liberia from 1989 to 1997 led to the collapse of its 
economy and left its infrastructure destroyed. Sustained fighting and 
human rights abuses by warring factions led to the exodus of an 
estimated 700,000 Liberian refugees to neighboring countries and an 
estimated 1 million internally displaced persons during the height of 
this conflict. In 1997, Charles Taylor was elected president by an 
exhausted country and with the support of the international community. 
Initial steps were taken to rebuild Liberia's infrastructure and to 
resettle refugees. However, since 1999, the governments of Guinea and 
Sierra Leone, as well as much of the international community, have 
accused Charles Taylor of supporting anti-government forces in both 
Guinea and Sierra Leone and exchanging diamonds for guns. The 
Government of Liberia (GOL) has spent from 2001 until the present 
engaged in battles of their own with anti-government factions in 
northern Liberia. This continued fighting has lead to the internal 
displacement of thousands of Liberians, and caused many more to flee to 
Cote d'lvoire, Guinea, and Sierra Leone.
    In May 2001, the U.N. Security Council (UNSC), in response to 
Charles Taylor's involvement with the Revolutionary United Front (RUF) 
in Sierra Leone, maintained an arms embargo on Liberia and imposed 
sanctions on diamond exports and international travel by GOL officials.
                  ii. a complex humanitarian emergency
Insecurity, Internally Displaced and Refugees
    Fighting in Liberia that was once confined to the northwestern 
county of Lofa, which borders Guinea and Sierra Leone, has now spread 
further south to within 25 miles of the capital, Monrovia. Clashes in 
late November and December between GOL troops and rebels identified as 
the Liberians United for Reconciliation and Democracy (LURD) in Grand 
Cape Mount and Bong counties, caused the displacement of an estimated 
4,000 Liberians. Due to heightened insecurity, World Vision was forced 
to withdraw relief assistance from Grand Cape Mount County. On December 
20, LURD forces captured the northern Lofa County city of Zorzor.
    World Vision, in collaboration with other relief agencies in 
Liberia currently estimate that over 176,000 persons are internally 
displaced and have fled their homes to other parts of Liberia. Since 
October 1, the movement of internally displaced persons (IDPs) has 
remained fluid, particularly in and out of the Bopolu and Gemana camps 
following the recent outbreak of violence. In late December, relief 
agencies were planning on establishing transit centers for IDPs in the 
towns of Sawmill and Nyomo in Bomi County. Because public services are 
non-existent, relief agencies continue to provide the majority of 
assistance to lDPs.
    The resurgence of fighting over the past year has also created an 
influx of Liberian refugees into Cote d'Ivoire, Guinea, and Sierra 
Leone. The UN High Commission for Refugees (UNHCR) has registered an 
estimated 20,000 Liberian refugees in Sierra Leone and 6,000 in Cote 
d'Ivoire since May 2001: 3,400 have fled in this last week alone. 
Unconfirmed numbers of Liberian refugees have also arrived in Guinea 
throughout 2001, but have yet to be registered. Prior to 2001, UNHCR 
estimated that 80,000 Liberians were living in Guinea and 120,000 in 
Cote d'Ivoire. UNHCR also estimates there are still 70,000 Sierra 
Leonean refugees living in Liberia.
                      iii. world vision in liberia
Overview
    In order to address the human suffering brought by the civil war, 
World Vision began the Liberia Emergency Response Program in 1988. The 
program was based in Lofa, Bong, Grand Cape Mount and Bomi Counties, 
but has shifted out of Lofa and Grand Cape Mount due to increasing 
political violence between the government forces and the LURD. Since 
it's inception, World Vision's work has had two components: (1) Basic 
healthcare delivery; Maternal/Child Health services, and (2) 
Agriculture rehabilitation of food production capacity. Both components 
mutually reinforce each other--with increased food production capacity, 
there is a corresponding improvement in nutrition and health. Likewise, 
by improving healthcare delivery systems through the renovation of 
medical clinics, and providing much needed medical supplies and primary 
health care, a healthier population has the capacity for food 
production and expanded economic activity.
Health
    World Vision's original health objectives were to provide supplies, 
supervision and management to 19 health facilities located in Lofa, 
Grand Cape Mount, and Bomi counties. With target beneficiaries of 
128,500, World Vision catchments provided immunizations to 50% of 
pregnant and lactating women. In addition, we also helped to:

  <bullet> train certified midwives at clinics and in the bush

  <bullet> monitor weight/age of children under 5

  <bullet> immunize children against childhood diseases (75 percent of 
        children by age 3)

  <bullet> health education on a variety of subjects, including HIV/
        AIDS

  <bullet> treat major health problems: malaria, diarrhea, acute 
        respiratory infection

    We found that in our catchments, most people did not know how 
malaria or cough was contracted; 77 percent of women delivered at home, 
and only 10 percent of children were immunized. In addition, 60 percent 
of households drank unsafe creek or river water, and 75 percent of 
households do not have a toilet, multiplying the transmission of 
waterborne diseases.
Causes for Scaling Back
    Although we have had good success in the past, World Vision has had 
to significantly scale back its health program for two reasons: 
increased violence and severe declines in U.S. government funding for 
health programs. Shortfalls in U.S. government funding will force World 
Vision to completely close our current health program by Sept 30, 2002.
Agriculture
    World Vision's agriculture program operated in the areas of Grand 
Cape Mount County; CARI, which is most of Bong County; Fumah, which is 
in parts of Bong and Margibi Counties; Monserrado, serving pen-urban 
areas outside of Monrovia; and parts of Lofa County. The program has 
had to retreat from two-thirds of that area due to violent conflict.
    WV's agriculture program currently was serving 220 rural farming 
communities with improved seed and technology, and 250 communities with 
gardening inputs and technology. The major agricultural focus is to get 
area farmers back on their feet by producing their own food for their 
food security, and then helping them to sell any surplus, focusing on 
indigenous crops of rice, sweet potato, plantain, banana, yam, and 
expanded vegetable gardening. World Vision's specific activities 
included:

  <bullet> Distribution of improved seeds and tools;

  <bullet> Technical assistance in organizing farmer groups for (1) 
        agricultural education and (2) for communal production of 
        improved seeds for distribution to the entire community;

  <bullet> Developing demonstration farm plots so that farmer groups 
        can test agricultural methods for themselves (For farmers 
        living on the margins, even improved seeds and techniques 
        constitute a life and death risk with their food security and 
        overall economic livelihood. Experimental plots give farmers 
        verifiable assurances that new seeds and techniques work.);

  <bullet> Promotion of lowland rice production which is the most 
        efficient, and productive, and damages the ecology the least;

  <bullet> Developing extensive improved seed production facilities and 
        training selected farmers as apprentices;

  <bullet> Introducing improved species of animals to breed with local 
        stock, since most animals were eaten by the soldiers during the 
        civil war; and

  <bullet> Introducing appropriate, small-scale agricultural machinery 
        to improve efficiency and the initial processing of 
        agricultural products for better storage, consumption and sale.

Causes for Scaling Back
    As with our health program, because of continued violence, WV no 
longer operates in Lofa or Grand Cape Mount counties. Additionally, the 
CARI seed production facility, which provided seeds for World Vision's 
target groups, was taken over by the GOL in the Fall of 2001. Declining 
U.S. government funds will probably force World Vision to lose its 
agriculture program by Sept. 30, 2002.
    iv. humanitarian crisis and the links to political and regional 
                              instability
Population Displacement and Instability
    There are direct and immediate linkages between humanitarian crises 
involving largescale population displacement and economic collapse to 
political and regional instability. Fear of violence is the most common 
reason why people flee their homes to seek safety elsewhere. In a 
region that has seen sustained violence and instability, the rise of 
human displacement in Liberia reinforces regional cycles of volatility. 
As of the first week of June 2002, current figures on accessible, 
internally displaced persons in Liberia have reached over 176,000. As 
mentioned above, refugee statistics are less definitive, largely due to 
border insecurity in both Guinea and Sierra Leone, but prior to 2001, 
there were over 80,000 Liberian refugees; with increased conflict, this 
number has surely increased. Women and their dependent children 
generally comprise more than 80% of refugees and displaced persons. The 
UN has said that, in humanitarian disasters, they bear ``a 
disproportionate share of the suffering.'' Refugee women must provide 
for their children in an atmosphere in which their security is 
threatened and the likelihood of sexual violence is increased.
    Violence between government forces and the LURD has been the chief 
cause for Liberian displacement. Population displacement of this level 
creates instability in the following ways:

  <bullet> Economic collapse. In an agrarian society such as Liberia, 
        removal from entitled land creates unemployment--farmers who 
        once cultivated their own land now have no land to farm--as 
        well as a serious food security crisis--farmers can no longer 
        produce food, and have no gainful employment to purchase food. 
        The production of rice, the main staple in Liberia, has been 
        estimated by the UN Food and Agriculture Organization to meet 
        only a third of the country's requirements.

  <bullet> Host communities and the displaced compete and sometimes 
        conflict over scarce resources. Host communities that are 
        already on the economic margins, now have to compete with a 
        large influx of outsiders who also need access to scarce 
        resources of land, healthcare, and education. Tensions can be 
        further exacerbated between host communities and displaced 
        populations when ethnic or political differences engender 
        conflict. With lack of adequate aid, stable communities can 
        quickly become part of conflict and instability as a swelling 
        population competes for limited resources. Environmental 
        destruction is also a result of a concentrated population in 
        search of firewood and construction materials.

  <bullet> Combatants infiltrating camps. The majority of displaced 
        persons live in camps, which should provide adequate levels of 
        food, shelter, healthcare and education. However camps can 
        become another source of instability because they often become 
        havens for armed groups, who can easily hide weapons and 
        infiltrate camps to receive food and medical care. The presence 
        of combatants makes non-combatants targets for attacks by 
        warring parties outside of the camps, and their presence 
        increases the rate of sexual violence and forced conscription, 
        especially of child soldiers. Theoretically, there should be an 
        attempt to separate combatants from noncombatants as they enter 
        into camps by interviewing persons as they enter. But camp 
        staff are usually out-numbered by the populations that they are 
        serving, often times by the thousands per every staff worker. 
        Displaced populations may or may not be able to identify 
        combatants within their midst, but most are all too often 
        worried about their own security and are intimidated into 
        remaining silent.
Regional Trends
    The humanitarian crisis in Liberia is currently unfolding in a 
cycle of violence, local economic collapse, and large displacements of 
the population. These are symptoms of the following 6 regional trends:

  1. Displaced, unemployed and mostly illiterate youth are vulnerable 
        to military recruitment by state and non-state actors 
        throughout the region. These child soldiers often become the 
        most brutal perpetrators of violent acts.

  2. Illegal mismanagement of natural resources, especially of diamonds 
        and timber, draws on a largely unemployed adult population in 
        the absence of industries, or a viable civil service.

  3. The militarization of formerly non-combatant communities as they 
        compete over scarce resources, makes them pawns for political 
        actors ready to capitalize on ethinic or regional differences, 
        further widening regional violence.

  4. The trafficking of small arms in an unstable environment becomes a 
        guaranteed source of power and income through banditry and 
        further exploitation and trafficking of conflict diamonds, 
        timber and other resources.

  4. Increasing disregard for human life by both state and non-state 
        actors, as reflected in the rise in the number and the degree 
        of brutal acts of torture, rape, harassment and executions 
        perpetrated against civilians--especially women and children--
        foments instability and sows the seeds for future discord and 
        social and economic collapse.

  5. Deterioration of basic infrastructure and services due to 
        perpetual cycles of instability and violence makes resettlement 
        of displaced populations and the restoration of economic 
        activities like trade and agriculture very difficult. UN 
        agencies such as the UN High Commission for Refugees (UNHCR) 
        and the World Food Program (WFP) are exhausting their resources 
        and cannot stretch their resources any further.

                v. declining u.s. government assistance
    Despite the expansion of a regional humanitarian crisis in the MRU, 
U.S. humanitarian assistance to Liberia has declined by 82% over the 
past 5 years.
    Since 1998, total U.S. government assistance to Liberia, including 
food aid, has declined to the following levels:

  <bullet> FY1998--$37,786,000

  <bullet> FY1999--$16,049,000

  <bullet> FY2000--$17,529,000

  <bullet> FY2001--$8,199,000

  <bullet> FY2002--$6,519,000

    This drastic decline in humanitarian assistance demonstrates 
unfortunate trends: (1) humanitarian assistance in the Mano River Union 
is a zero sum game, which means that there are only winners and 
losers--we take from Liberia and give to Sierra Leone, rather than 
having a balanced, regional approach to humanitarian assistance. And 
(2) policy makers in the U.S. have incorrectly politicized humanitarian 
assistance to Liberia. Instead, it is better to separate humanitarian 
assistance from our political strategy with Charles Taylor. 
Humanitarian assistance, especially when it is channeled through local 
and international relief agencies, has proven to be an effective tool 
for building strong civil society actors that can democratically 
challenge the political establishment while rebuilding societies and 
economies damaged by war. These are a long and medium-term investments, 
with long-term pay-offs. Starving an already volatile region, or 
unevenly distributing aid--i.e., investing in Sierra Leone, and not in 
Liberia or Guinea, simply creates a merry-go-round of violence and 
displacement, shifting war from one country to the next.
                  vi. conclusions and recommendations
    Increased violence between the GOL and the LURD has caused severe 
displacement in Liberia and could eventually disrupt the fragile peace 
in Sierra Leone as displaced Liberians seek asylum. Sierra Leone itself 
has recently emerged from an 11 year conflict; an influx of Liberian 
refugees and possible combatants competing for resources, has the 
potential of widening the Liberian conflict and sending Sierra Leone 
back into war. More war in the Mano River Union is not going to resolve 
the existing war. Unified and serious diplomatic initiatives, 
especially lead by the U.S. and the U.K. who have already demonstrated 
diplomatic leadership in Sierra Leone, should continue by initiating a 
mechanism to channel whatever compromises that Charles Taylor and other 
combatants may be willing to make into a process that is more 
constructive than conflict.
    Humanitarian assistance to the region should also increase to 
diffuse the potential for conflict within communities and among the MRU 
nations. Over the past 2 years, World Vision and other agencies have 
seen an increase in aid to Sierra Leone, but there has been a rapid 
decrease in aid to Liberia, which, ultimately, undermines the total US 
government investment in the region. Total US government assistance to 
Liberia went from $37.7 million in FY 1998 to $6.5 million for FY 2002; 
an 82% decrease in just 5 years. The rapid decline and current 
restructuring of U.S. government assistance is forcing World Vision and 
other international aid agencies to completely close down operations by 
the end of this fiscal year. Declining humanitarian assistance does not 
affect political change, but, rather, gives incentives for conflict and 
instability over scarce public resources.
    Sustained diplomatic leadership, coupled with increased and evenly 
dispersed humanitarian assistance among the 3 countries will bring 
about long-term stability, which will eventually give way to indigenous 
political change in Liberia, which will provide a peace dividend for 
the entire Mano River Union.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony.

    Senator Feingold. Thank you, Ms. Anderson, for your 
testimony, particularly in terms of the long-term perspective.
    Mr. Sannoh.

  STATEMENT OF BENEDICT F. SANNOH, COUNSELLOR, REAGAN-FASSELL 
DEMOCRACY FELLOW, NATIONAL ENDOWMENT FOR DEMOCRACY, WASHINGTON, 
                               DC

    Mr. Sannoh. Mr. Chairman, members of this committee, I am 
pleased to be here this afternoon upon your invitation to share 
my views on Liberia as a free state, and I want to thank you 
for the invitation.
    Mr. Chairman, today Liberia has been described as a failed 
state. Some have even referred to it as a rogue state, a state 
that has disintegrated. In 1997, the Liberian people, after a 
brutal and devastating civil war, went to the polls to elect a 
government. President Taylor won that election by an 
overwhelming majority of the vote, but elections, Mr. Chairman, 
is not an end in itself but a process toward democratization, 
and this process has been very bumpy for Liberia.
    Notwithstanding the end of the civil war, peace and 
stability in Liberia still remains elusive. Crucial elements 
for democratization have not been nurtured. The government is 
at war with the rebel faction, LURD, and also at war with its 
own people. A third of the country is in the state of war, a 
war that has the propensity of destabilizing the entire Mano 
River Union region.
    Thousands of our people are displaced either internally or 
externally as refugees. The brain drain of professionals and 
capable Liberians who otherwise would be in Liberia to 
contribute to the democratization process is alarming, so I 
have come here today to appeal to the U.S. Government to take a 
leadership role in Liberia. This is the time we need you, 
because when you needed us we stood by your side.
    History tells us of the rule of Liberia during the cold war 
in support of your own ideological struggle. The Voice of 
America, VOA, in Liberia covered the entire continent of 
Africa. You installed a communication relay station in Liberia 
that served as a transit point for all communications between 
the State Department in Washington, DC and U.S. Embassies in 
sub-Saharan Africa. You installed the Omega Navigation Station 
on Liberian soil that picks up signals from all vessels on the 
high seas in Africa, and directs the vessels navigation. You 
constructed the free Port of Liberia and the international 
airport for you to use during the Second World War.
    As a result of all of these efforts, Mr. Chairman, we 
assisted you with all of our might, and you won the ideological 
war. Now that you have won, you seem to have abandoned us. 
Today, the United States is a world leader, and Liberia remains 
in chaos and instability. Maybe except for Mr. Taylor and those 
of his government, the bulk of the Liberian people are living 
in abject poverty.
    There is no electricity, there is no running water or 
health care facilities, inadequate schools, only two 
universities, and most of the time these universities are 
closed. There is massive internal and external displacement, 
posing an increasing burden on the subregion. If the United 
States fails to take such a leadership role in Liberia, no 
other country would, and Liberia risks slipping gradually into 
anarchy and chaos.
    The question is, Mr. Chairman, why is Liberia slipping into 
anarchy? If Liberia is today characterized as a failed state 
necessitating these hearings on Liberia, I would like to say 
up-front that the dilemma has been occasioned by the entirety 
of circumstances, including many factors, the abandonment of 
Liberia by the United States, the civil war, the transition 
from war to elected government through elections, and the 
conduct of the constitutionally elected government of Mr. 
Taylor himself, since he took control of our country in 1997.
    For the purpose of this hearing and because of the brevity 
of time I would like to limit my testimony to three of these 
areas. The first is the transition from war to peace, and 
perhaps what happened in Sierra Leone is born from the 
experience of what happened in Liberia.
    A crucial element of the EC, even the political parties, 
who contribute to the democratization process. The Liberian 
national transitional government and the parties to the 
conflict failed to implement the restructuring aspect of Abuja 
and went to the polls, and the international community knew 
very well the impact of that failure on the reconstitution of 
peace in Liberia.
    Now, the conduct of the elected government. President 
Taylor upon his inauguration in 1997 was faced with two 
immediate challenges. One was how to protect the security of 
the state, and to maintain peace and order throughout the 
length and breadth of Liberia, because that responsibility has 
been had by ECOMOG.
    Second, how to foster general reconciliation between and 
among the Liberian people in a manner that would induce peace, 
stability, and national unification, and I want to submit, Mr. 
Chairman, that the manner in which Taylor addresses these two 
issues is in a way responsible for the state of affairs in 
Liberia today.
    So I address the issue of peace, or national unification. 
The government established two commissions, one on human rights 
and one on reconciliation and reunification. These commissions 
remain mere institutions on paper. They have been dormant, and 
they have not really done any effective work. As a result, the 
Liberian people still remain at odds on many, many issues.
    To address the question of security and the maintenance of 
peace throughout the length of Liberia, Taylor immediately 
after the elections occasioned the early departure of ECOMOG. 
He did not secure any agreement for ECOWAS, for ECOMOG to stay 
so as to supervise the issue of the problem of security during 
his regime. With the departure of ECOMOG, Mr. Chairman, the 
government exacerbated the problem when it did not restructure 
the security apparatus of the country. Rather, it went on to 
use the former rebels of the National Patriotic Party to fill 
in the ranks of the Liberian National Police, and he also went 
on to create a paramilitary force, the ATU, comprising again 
mostly former fighters in the NPFL.
    Now, compounding these two issues, the issues of security, 
the issue of national conciliation, the country suddenly found 
itself entangled in two other problems, first, the imposition 
of sanctions by the international community, and second, the 
attack by LURD, Liberians United for Reconciliation and 
Democracy. Those remain problems in Liberia today.
    We have another issue of good governance, human rights and 
the rule of law. The issue of violation of human rights remains 
a crucial issue. Sometimes in African countries efforts are 
made with respect to national sovereignty. While individuals do 
have a sovereignty, the respect for our sovereignty has been 
incorporated in many international instruments, human rights 
documents in which Liberia is a signatory.
    Most of these documents have not been worked out. The 
increasing violation of human rights are fundamentally 
practiced in Liberia with impunity, lack of respect for the 
rule of law, and the lack of accountability and transparency in 
government, and increasingly as evidenced by events over the 
past 2 weeks, the government seems to be closing the political 
space for civil society organizations and activities, including 
human rights advocates and the press.
    On the issue of U.N. sanctions, there is a prevailing view 
that the sanctions imposed by the U.N. Security Council is 
primarily directed at President Taylor and his government, and 
it has indirect repercussions on the lives of the Liberian 
people. There has been a chilling effect on the level of 
bilateral assistance to Liberia since the imposition of 
sanctions.
    Many of those who would impose sanctions have been major 
donors of assistance to Liberia, and they have scaled down 
their bilateral assistance to Liberia, and that is why when I 
listened to the question that was posed to the representative 
from the State Department as to the level of U.S. involvement 
toward the civil society sector of Liberia so as to ameliorate 
the effects of sanctions, those responses do not actually 
reflect the reality on the ground. The reality on the ground is 
that the efforts of assistance from the U.S. Government to the 
civil society in Liberia is at a very low level.
    What are the combined impacts of sanctions and LURD on the 
democratization process in Liberia? Continued LURD attacks 
against the government, coupled with sanctions and the economic 
conditions in Liberia, would obviously affect the timetable for 
general Presidential elections and the entire process of 
democratization in Liberia. There are a number of legal 
constitutional hurdles that must be overcome if we are going to 
have elections in Liberia. This includes the issue of national 
census.
    The government does not have the resources to even conduct 
a national census. No national census has been conducted in 
Liberia since 1985. The demarcation of constituencies for the 
voting population and the determination of the number of 
representatives for the legislature, these issues have not been 
discussed, the issue of security and the state of emergency 
recently declared by the President.
    Let me move a little bit to the dilemma of ordinary 
Liberians. A couple of questions were raised with respect to 
this issue. Mr. Chairman, I would like to submit that the 
people of Liberia, the ordinary Liberians are in a dilemma. In 
1997, after a bloody and devastating civil war, we went to the 
polls to elect a government. Charles Taylor won the elections. 
There now seems to be a consensus among most Liberians that the 
best way to exercise, to move forward is through a democratic 
process by means of the ballot box and not by violence.
    This dilemma is obvious. On the one hand, Liberians have a 
President and a government that they are stuck with for the 
next 18 months, and perhaps even longer, in spite of the 
questions of security, national reconciliation, and the lack of 
resources to address the myriad of social and economic problems 
confronting the Liberian people today.
    On the other hand, Liberians are faced with rebel 
incursions the consequences of which have relegated them to 
internal and external displacement, suffering, and deprivation. 
Still on that front Liberians are faced with sanctions and the 
resultant effect of reduced bilateral assistance, as a result 
of which, post conflict reconstruction and development in 
Liberia never got off the ground, but in spite of all of these 
concerns the international community seems to forget the view 
that once sanctions have been imposed on Liberia because of the 
alleged conduct of their President, the fate of the Liberian 
public have become irrelevant and immaterial.
    This is a very serious problem, Mr. Chairman. It is tough 
for--one of the committees succinctly put this to me when I 
tried to talk to many people here in the states, ``that the 
fate of ordinary Liberians is linked to the fate of Charles 
Taylor.'' I do not want to believe that. The isolation of 
Liberia by the international community is also not limited to 
the trivialization of the plight of the Liberian people who 
have seen the focus on bringing peace to Sierra Leone. We see 
U.S. involvement in Guinea, while Liberia remains a 10-foot 
pole that nobody wants to touch. This has the potential of 
destabilizing the subregion.
    On the role of the international community, Mr. Chairman, 
if Liberia is a failed state today, some of the causes emanate 
from the actions taken or not taken by the international 
community at the appropriate times or periods. For instance, I 
briefly talk about the failure to implement the relevant 
provisions of the Abuja agreement under international 
supervision.
    We are also seeing the failure of the international 
community to condemn LURD, to intercede in the Liberian 
conflict so as to bring about a lasting cease-fire, while at 
the same time we are imposing a ban on the importation of arms 
by the government to defend itself and the people of Liberia, 
which is a constitutional duty imposed upon that government.
    And second, there is a lack of U.S. interest and leadership 
role in Liberia. The insistence on the policy of containment, 
believing that with increasing sanctions and international 
isolation there would be a change in Liberia has not achieved 
the desired results. This policy trivializes the impact of 
containment on the lives of ordinary Liberians, and links the 
fate of ordinary Liberians to that of the government.
    What recommendations do I have to address some of these 
issues? Mr. Chairman, there are some key initiatives that can 
dramatically turn around the turn of events in Liberia and put 
it on a path toward democratization and sustained peace.
    First, the Government of the United States must not rely 
solely on the policy of containment and the increasing 
isolation of Liberia as the only avenue toward bringing 
political change in Liberia.
    Second, efforts at bringing a durable peace, stability, and 
security to Liberia cannot be left to ECOWAS alone. Growing out 
of our experience with ECOWAS intervention during the Liberian 
civil war, regional politics, combined with tribal and ethnic 
affiliations will continue to have a negative impact on ECOWAS 
initiatives. Accordingly, we recommend, Mr. Chairman, that the 
United States take a leadership role in Liberia just as the 
British did in Sierra Leone, and help evolve a process that 
will bring Liberia back toward the cause of democratization.
    The first step in evolving such a process is to help create 
an enabling environment in Liberia for security, stability, and 
sustained peace. There are several elements in this step. 
First, the United States must take a leadership role in 
creating a contact group, as suggested by the International 
Crisis Group and Human Rights Watch, to supervise the process.
    Second, the contact group, once created, should call upon 
the government and LURD to declare an immediate cease-fire and 
enter into a dialog and negotiations with a view on resolving 
the conflict. These discussions must also include 
representations from the political leadership of Liberia, 
including political parties, or leaders of political parties 
outside Liberia.
    Third, one of the crucial items for discussion in Liberia 
by this contact group that we are recommending for the United 
States to take a leadership role in its creation is the issue 
of security. There will be no lasting peace in Liberia, Mr. 
Chairman, if the security apparatus of the government remains 
intact. Hence, the contact group must obtain consensus from all 
parties to deploy an international force on the ground in 
Liberia to monitor the cease-fire, to take over the entire 
security of the country, to disarm all combatants, including 
the police, the ATU, and all security apparatus. The 
composition of the force must again not be limited to ECOWAS 
alone, and the emergency imposed by the government must be 
lifted upon the arrival of the intervention force.
    Fourth, the question of governance and the status of 
democratic institutions in Liberia between now and the period 
of general elections must be discussed. This includes the 
elections commission, the judiciary, the prosecutorial arm of 
government, and the control over the nation's resources and 
finances.
    And fifth, the contact group must visit the question of 
general Presidential elections and obtain a consensus on such 
crucial issues such as census, representation, number of 
constituencies, and provide resources to facilitate the process 
in Liberia.
    Finally, Mr. Chairman, the U.S. Government must strengthen 
civil society in Liberia to enable them to make informed and 
reasoned decisions about the democratization process in 
Liberia. The level of illiteracy in Liberia is very high. When 
you combine the high level of illiteracy and the high level of 
poverty amidst the war that is going on, it is very, very 
possible that you'll have elections producing results that may 
not reflect the views of the Liberian people. Crucial areas are 
support for the press, human rights institutions, human rights 
advocates, and pro-democratic organizations. We recommend 
support for the strengthening of political parties and the 
reactivation of the Human Rights Commission.
    In conclusion, Mr. Chairman, we agree with the report of 
the State Department, the analysis that Liberia is not likely 
to change right now, and without a U.S. leadership role and 
international involvement the country will slip into chaos and 
potentially destabilize the subregion, and again, as I said, we 
disagree with the analysis of the State Department that there 
is a good level of support by the U.S. Government to the civil 
society at this time.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sannoh follows:]

  Prepared Statement of Counsellor Benedict F. Sannoh, Reagan-Fascell 
        Democracy Fellow, National Endowment for Democracy (NED)

    Mr. Chairman and members of the Committee, I am pleased to be here 
this afternoon upon your invitation to share my views on Liberia as a 
failed state. Thank you for the invitation.
    My name is Benedict F. Sannoh. I am a Reagan-Fascell Democracy 
Fellow at the National Endowment for Democracy here in Washington, D.C. 
Prior to that I served as Executive Director of the Center For Law and 
Human Rights, a non-profit, non-governmental human rights and pro-
democracy organization operating in Monrovia, Liberia. I also serve as 
Assistant Professor of Law, Louis Arthur Grimes School of Law, 
University of Liberia. For the past ten years, I have been involved in 
human rights, the peace process during the course of the civil war, and 
the process of democratization since the 1997 General and Presidential 
elections.
    Mr. Chairman, today Liberia has been described as a failed state. 
Some have referred to it even as pariah state, a rogue state or a state 
that has disintegrated. In 1997, the Liberian people, after a brutal 
and devastating civil war went to the polls to elect a Government. 
President Charles Taylor won the election by an overwhelming majority. 
But elections, Mr. Chairman, is not an end in itself, but a process 
toward a democratization. Notwithstanding the end of the civil war, 
peace and stability in Liberia still remains elusive, but crucial 
elements necessary for democratization have not been nurtured. The 
Government is at war with a rebel faction, LURD, and at war with its 
own people. A third of the country is in a state of war, a war that has 
the propensity of destabilizing the entire Mano River subregion. 
Thousands of our people are displaced either internally or externally 
as refugees. The brain drain of professional and capable Liberians who 
would otherwise be contributing to the democratization process in 
Liberia is alarming.
    So we have come here today to ask the United States Government to 
take a leadership role in Liberia. This is the time we need you because 
when you needed us, we stood by your side. History tells us of the role 
of Liberia during the cold war in support of your ideological struggle.

  <bullet> You erected the Voice of America (VOA) in Liberia, that 
        covered the entire continent of Africa;

  <bullet> You installed a communications relay station in Liberia that 
        served as the transit point for all communication between the 
        State Department in Washington and U.S. embassies in sub-Sahara 
        Africa;

  <bullet> You installed the Omega Navigation Station on Liberian soil 
        that picked up signals from all vessels on the high seas in 
        Africa and also directed vessels during navigation;

  <bullet> You constructed the Freeport of Monrovia and the Roberts 
        International Airport (RIA) for use during the second World 
        War.

    As a result of these efforts, we assisted you with all our might, 
and you won the ideological war. Now that you have won, you seem to 
have abandoned us. Today, the United States is a world leader, and 
Liberia remains in chaos and instability. If the United States fails to 
take such a leadership role in Liberia, no other country would, and 
Liberia risks slipping gradually into anarchy and state collapse.
    If Liberia is today characterized as a failed state, necessitating 
the convening of these hearings, I would like to state up front that 
the dilemma has been occasioned by the tyranny of circumstances, 
including among others, the abandonment of Liberia by the United 
States, the civil war, the transition from war to a democratically 
elected Government through elections, and the conduct of the 
constitutionally elected Government since it took over control of the 
Country in August 1997, and the role of the international community. 
For the purpose of this hearing, and because of the brevity of time, I 
would like to limit my testimony to these three areas.
     the civil war and the transition to a democratically elected 
                            government: \1\
---------------------------------------------------------------------------
    \1\ See Liberian Dilemma: Remaining Engaged in the Face of 
Sanctions, a paper delivered by Benedict F. Sannoh at the National 
Endowment for Democracy, April 9, 2002.
---------------------------------------------------------------------------
    When the Economic Community of West African States (ECOWAS) 
intervened in the Liberian Civil War, it had two principal objectives: 
(1) To prevent the war from spilling beyond the borders of Liberia and 
from threatening the peace and security of the West African subregion, 
and (2) to forge ways and means to achieve a political settlement of 
the conflict through dialogue. To achieve these objectives, ECOWAS 
evolved what became known as the ECOWAS Peace Plan, which essentially 
provided for a two prong approach to the settlement of the war; one 
military and the other political.
    On the political front, ECOWAS created the enabling environment for 
Liberians themselves to establish a frame work for an Interim 
Governance of the Country during the conflict, and in collaboration 
with the United Nations, facilitated several conferences between the 
parties geared toward the cessation of hostilities and obtaining a 
consensus on the holding of a free elections to put into place a 
democratically elected Government.
    On the military front, ECOWAS deployed a multinational peace 
keeping force, ECOMOG, in Liberia to separate the warring factions, 
protect the Interim Government, and assist it in maintaining law and 
order. The ECOWAS Peace Plan called for a cease-fire, disarmament, 
encampment, demobilization and reintegration of all former fighters. To 
enhance the success of the military approach, ECOWAS imposed a ban on 
the importation of arms and ammunition into Liberia by any of the 
warring factions, and called for the restructuring of the security 
apparatus of the country prior to the hosting of general elections. 
Within the contemplation of ECOWAS, the restructuring of the security 
forces would have facilitated the creation of an enabling environment 
substantial enough to:

  <bullet> Induce all political presidential aspirants, including heads 
        of warring factions, to participate in the elections, by 
        canvassing freely for votes throughout the length and breadth 
        of Liberia, without fear of intimidation and molestation, 
        actual or perceived from the various warring factions;

          1. induce Liberian refugees in the subregion and elsewhere to 
        return home;

          2. induce confidence among all the warring factions to submit 
        to the democratic process, with the expectation that their 
        interests, individual and collective, will be subjected to fair 
        opportunity and equal treatment; this in the mind of the 
        authority of ECOWAS, would have enhanced and facilitated 
        disarmament, encampment, demobilization, and the process of 
        reintegration of all combatants; and.

          3. consolidate peace, stability, and the democratization 
        process in Liberia after elections in a manner that would have 
        induced not only those who lost the elections to remain in 
        Liberia, but also other Liberians living abroad to return home 
        after the elections and contribute to the development of the 
        nation.

    Unfortunately, the Liberia National Transitional Government (LNTG), 
and the parties to the conflict, failed to muster the political 
fortitude to restructure the security apparatus of Liberia as mandated 
by ECOWAS. Notwithstanding, and with full knowledge of the potential 
implications of this situation, ECOWAS and the international community, 
perhaps out of fatigue with the failure of the parties to the conflict 
to adhere to successive peace agreements, urged the Liberian people to 
go to the polls, as the only way forward to bring the conflict to an 
end, in spite of opposition from some political parties and human 
rights groups. In an election that was internationally certified as 
free and transparent, Charles Ghangay Taylor, then leader of the 
erstwhile National Patriotic Front of Liberia (NPFL) was elected as 
President with over 74% of the votes.
               the conduct of the elected government: \2\
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------
    Upon his inauguration in August 1997, the Government of President 
Taylor was faced with two immediate challenges:

          (1) How to protect the security of the state and to maintain 
        peace and order throughout the length and breath of Liberia; 
        and

          (2) How to foster genuine reconciliation between and among 
        the Liberia people in a manner that would induce peace, 
        stability and national unification in a country that has been 
        torn apart by seven years of civil war with ethnic and tribal 
        underpinnings.

    The manner in which the Taylor led Government responded to these 
challenges continues to be the reasons for the current political 
climate in Liberia and for the characterization of Liberia as a failed 
state.
            the issue of peace and national reconciliation:
    To address the issue of peace and national reconciliation, the 
Taylor led Government established two Commissions: The National 
Commission on Human Rights (NCHR); and the Liberia National 
Reconciliation and Re-unification Commission (LNRRC). Unfortunately, 
however, these institutions either by design, or by default, have 
failed to rise up to the task. The National Commission on Human Rights 
has up to date not been fully constituted and without Government 
support, has remained dormant since its creation nearly four years ago.
    The National Reconciliation and Re-unification Commission, although 
fully constituted, has not made any meaningful inroads in healing the 
wounds of the war, in reconciling the Liberian people, or preventing 
ethnic or tribal conflicts such as those between the Gios, Manos and 
Mandingoes. Hence the challenge of fostering genuine reconciliation 
between and among the Liberian people in a manner that would induce 
peace, stability and national unification still remains elusive.
    To address the question of security and the maintenance of peace 
and order throughout the length and breath of Liberia, the Taylor led 
Government started on the wrong foot. Firstly, through its failure to 
obtain an agreement from the authority of ECOWAS, or the member states 
thereof, the Government precipitated the early departure from Liberia, 
of the West African Peace Keeping Force, ECOMOG, who had up to the 
elections and the inauguration of the Government, been responsible for 
the security of the Country.
    With the departure of ECOMOG, the Government exacerbated the 
problem when it elected not to restructure the security apparatus of 
the Country, particularly its national army; the Armed Forces of 
Liberia (AFL), it having lost its legitimacy as such when it allowed 
itself to become factionalized during the conflict. In opting not to 
restructure the national army, the Government advanced the argument 
that the Abuja agreement, which had mandated the restructuring, was not 
binding on the Government, it having lapsed upon the inauguration of an 
elected Government and the reaffirmation of the Liberian Constitution 
which had been suspended in 1990. Instead of restructuring the security 
apparatus as mandated by Abuja, the Taylor led Government created a 
paramilitaiy force, the Anti Terrorist Unit (ATU), comprised mostly of 
former combatants of the National Patriotic Front of Liberia (NPFL). 
The Government also swelled the ranks of the Liberia National Police 
(LNP) with former combatants of the NPFL. It is these two factional 
institutions that the Government relies upon for the defense of the 
nation, for national security, and for the maintenance of law and 
order, leaving the Armed Forces of Liberia (AFL) marginalized and 
demoralized with over 4000 of its soldiers retired or discharged. It 
was only when the Government came under increasing attack by the 
dissident forces that the Government was constrained to recall most of 
these soldiers to duty.
    Compounding the failure of the Taylor Government to properly 
address the challenges of security and national reconciliation, the 
country suddenly found itself entangled in two developments. Firstly, 
the International Community accused the Government of President Taylor 
of engaging in conduct that allegedly posed a threat to the peace and 
stability of the West African subregion. Specifically, the President 
was accused of fueling the war in neighboring Sierra Leone through the 
supply of arms to the Revolutionary United Front (RUF) in exchange of 
diamonds. Led by the United States and Great Britain, the Security 
Council of the United Nations imposed sanctions on Liberia--a ban on 
the importation of arms into Liberia (note that the ban imposed by the 
ECOWAS as part of its Peace Plan for Liberia was never lifted); a ban 
on the exportation of diamonds from Liberia, and the imposition of 
travel restrictions on key officials of the Government.
    Secondly, the country came under armed attack by a rebel group, the 
Liberians United For Reconciliation and Democracy (LURD), with the 
professed goal of destabilizing and overthrowing the Government of 
President Taylor. As the attacks shifted from the Bopolu and Kolahun 
areas of Lofa County, (where the rebels were held by government forces 
for a considerable period), to lower Lofa, and Klay, Bomi County, less 
than forty miles from the Capital City of Monrovia, the Government 
declared a state of Emergency on February 8, 2002. Fighting 
intensified, notwithstanding. The LURD rebels took over Klay, a 
strategic town located about 25 kilometers from Monrovia, and 
subsequently Gbamga, the provincial capital of Bong County, on the 
major trunk route to Ivory Coast, which necessitated a counter attack 
by the Government. The rebels were dislodged, but at the expense of 
lives and a massive humanitarian crisis. As I speak, sporadic fighting 
is still going on in diverse parts of Liberia between LURD and forces 
loyal to the Government.
    Fearing that continued instability in Liberia may spill over into 
the neighboring countries, and potentially undermine the peace and 
security of the subregion, reminiscent of the civil war years, the 
Heads of State and Governments of ECOWAS recently called upon the 
Government of Liberia and LURD to declare an immediate cease-fire and 
enter into dialogue with the view of ending the conflict. ECOWAS also 
cautioned that if the parties do not adhere to this call, it will be 
constrained to deploy an intervention force into Liberia. Initially, 
the Government frowned on the call for cease-fire, noting that it is 
poised for an all out offensive to get rid of LURD once and for all, 
and that a cease-fire will give them an opportunity to regroup. 
Further, the Government characterized LURD as a terrorist group, and 
advancing the position that it cannot negotiate with terrorists. LURD 
on the other hand, in a press release issued about three weeks ago, has 
declared a unilateral cease-fire, stating that it will not attack any 
new positions, but will hold those areas under its control and defend 
them when attacked. Notwithstanding, war is still being waged in 
Liberia. Hence the political climate in Liberia is very grim and is 
deteriorating with a potential of posing yet another threat to the 
peace and stability of the West African subregion.
        good governance, human rights, and the rule of law: \3\
---------------------------------------------------------------------------
    \3\ Ibid.
---------------------------------------------------------------------------
    Exacerbating the problem of security and reconciliation, are the 
increasing concerns over the internal governance of the country. 
Increasingly, questions are been raised of the growing violations of 
human rights and fundamental liberties in Liberia with impunity, of the 
lack of respect for the rule of law, and the lack of accountability and 
transparency in government. Increasingly, the Government seems to be 
closing the political space for civil society organizations and 
activists, including human rights advocates and the press. The arrest 
and detention of Counsellor Frances Johnson Morris, former Chief 
Justice of the Supreme Court and director of the Catholic Justice and 
Peace Commission, the arrest of Counsellor Tiawon Gongloe, a human 
rights lawyer, the closure of the Analyst newspapers, the summoning of 
the Manager of the Catholic Radio program ``Radio Veritas'' and the 
confiscation of the stations' cassette of a recorded program, all 
without due process of law, demonstrates the low level of political 
space and tolerance for divergent opinions and viewpoints.
                          u.n. sanctions: \4\
---------------------------------------------------------------------------
    \4\ Ibid.
---------------------------------------------------------------------------
    With the failure of the Taylor Government to properly address the 
challenges of security and national reconciliation, the country 
suddenly found itself entangled in two developments. Firstly, the 
International Community accused the Government of President Taylor of 
engaging in conduct that allegedly posed a threat to the peace and 
stability of the West African subregion. Specifically, the President 
was accused of fueling the war in neighboring Sierra Leone through the 
supply of arms to the Revolutionary United Front (RUF) in exchange of 
diamonds. Led by the United States and the Great Britain, the Security 
Council of the United Nations imposed sanctions on Liberia--a ban on 
the importation of arms into Liberia (note that the ban imposed by the 
ECOWAS as part of its Peace Plan for Liberia was never lifted); a ban 
on the exportation of diamonds from Liberia; and the imposition of 
travel restrictions on key officials of the Government.
    While it is true that the sanctions imposed by the U.N. Security 
Council is primarily directed at President Taylor and his Government, 
it has indirect repercussions on the lives of ordinaty Liberians. The 
imposition of sanctions have had a chilling and negative impact on the 
bilateral relations between Liberia and several other countries from 
which it traditional receives economic and development aid. It is 
through these bilateral programs that Liberia had in the past addressed 
its economic and social development agenda, such as light, safe 
drinking water, schools, health care, roads and communication among 
others. Such economic aid is all the more imperative for a country 
emerging war, with most of its infrastructure, economy and institutions 
virtually destroyed.
    The development indicators for Liberia are very grim: A United 
Nations Development Programs (UNDP) human development index ranks 
Liberia at 174th out of 177 developing countries; the literacy rate is 
less than 35%; the life expectancy at birth is pegged at 43 years; and 
with over 85% of its population living in abject poverty. It appears to 
me that with the imposition of sanctions, many of Liberia's traditional 
partners have scaled down and in some cases cut off all bilateral 
assistance to Liberia that would have otherwise inured to the benefit 
of the masses.
                          the lurd attacks \5\
---------------------------------------------------------------------------
    \5\ Ibid.
---------------------------------------------------------------------------
    The second proximate result of the failure of the Taylor Government 
to properly address the challenges of security and national 
reconciliation, was the emergence of LURD attacks, whatever way one may 
want to characterize it, is inherently brutal and violent. Those 
against whom the war is directed are the least to face the brunt of the 
suffering. Instead, Innocent people, the elderly, women and children 
are the real victims; some get killed by the bullets or by the 
starvation, deprivation and denial occasioned by the conflict, while 
others are injured and maimed. Properties are destroyed, and the 
inhabitants are forced to flee from the only place they know as home, 
either internally as displaced persons or externally as refugees. The 
consequences of a rebel war cannot all be placed squarely at the foot 
of the rebels. Sometimes, more damage ensues out of Government's 
counter attack to repel a rebel attack. What ever the cause is, as 
between the rebels and the Government, a stage is set for a massive 
humanitarian crisis. So is the case with the LURD incursion into 
Liberia. The LURD dissident attacks have been going on for nearly three 
years now, during which hundreds of people have died, while thousands 
have been internally displaced or forced to flee from their homes into 
neighboring countries as refugees. According to UNHCR sources, over 
18,000 Liberians have crossed into Sierra Leone as refugees since the 
Lofa and the Bomi attacks. The level of starvation and deprivations in 
the areas affected by the conflict is reminiscent of the 1990 civil 
war.
    One may ask the question therefore, as to whether or not, it is 
productive for LURD to keep launching sporadic attacks on innocent 
civilians, in areas far removed from the seat of Government, causing 
deaths and massive humanitarian suffering of innocent civilians, 
especially the elderly, women and children, without any real military 
gains. Broadcasts over BBC of military attacks and gains by LURD, only 
to be reversed in less than twenty four hours by the government, at the 
expense of lives and properties, is in my mind, counterproductive, 
inhumane and politically incorrect. Liberia cannot go through such a 
cycle of violence, while her counterparts in the subregion are 
consolidating democratic gains at the polls and developing their 
respective countries.
 combined impact of sanctions and lurd attacks on the democratization 
                        process in liberia: \6\
---------------------------------------------------------------------------
    \6\ Ibid.
---------------------------------------------------------------------------
    Continued LURD attacks against the Government coupled with 
sanctions and the deteriorating economic conditions in Liberia will 
adversely affect the time table for general and presidential elections 
and the process of democratization in Liberia. Under the Constitution 
and laws of Liberia, the President shall hold office for a period of 
six years, and shall leave unless re-elected through a general 
election. Hence the next general and Presidential election is slated 
for October 2003. However, there are a number of legal and 
constitutional hurdles in the path leading to the 2003 general and 
presidential elections. These include the question of: (1) a national 
census; (2) the demarcation of constituencies for voting purposes and 
the determination of the number of representatives to the Legislature 
from each county, (3) security; and (4) the state of emergency recently 
declared by the government.
(1) National census and the determination of the number of 
        representatives:
    The the Constitution of Liberia requires the taking of a national 
census so as to determine the numerical population for the demarcation 
of constituencies and the determination of the number of 
representatives from each county for the Legislature. This is all the 
more crucial when taken against the background that: (1) no census has 
been taken in Liberia since the seventies; (2) when the 1997 elections, 
dubbed as special elections, reverted to the allocations in the 
Legislature obtained from the 1986 general elections, with no regard 
for population increases, decreases, or movements; (3) two new counties 
have been created since the 1997 elections by the Taylor Government, 
resulting in a concomitant decrease in the population of the counties 
from which these new counties were carved. The Constitution requires 
that for each 20,000 people, there shall be one representative. The 
Elections Commission determines the number of constituencies based on a 
national census. While it is also true that the National legislature 
can increase or decrease the number or the ratio of people in a 
constituency to a representative, the power to do so is triggered only 
upon the results of a national census. In the absence of a national 
census therefore, how can a determination be made of the allocation of 
representatives for the new counties, as well as other counties where 
there have been substantial population movements.
    Of further concern is the political utility of a national census 
considering the demographic landscape of Liberia since the civil war. 
Assume for instance, that a national census is taken prior to 
elections; is it politically correct to use the figures obtained 
therefrom as a basis for the allocation of seats in the Legislature, 
especially where it results to a reduction in the existing allocations, 
when there has been massive population movements occasioned by the 
civil war, the recent rebel incursions and dissident attacks, as for 
example in Lofa, Gbarpolu, Grand Cape Mount and Bomi Counties? These 
issues require a national evolving from participation of all the 
stakeholders, especially opposition political parties, the leaders of 
some of which are currently out of the country.
(2) Question of Security:
    As indicated elsewhere in this paper, one of the reasons why the 
ECOWAS Peace Plan called for the restructuring of the security 
apparatus of Liberia was not only to create the enabling environment 
for all Liberians to participate in the elections, without fear of 
intimidation and molestation, but also to consolidate peace, stability, 
and the democratization process in Liberia after elections in a manner 
that would have induced those who lost the elections to remain in 
Liberia, as well as Liberian in the subregion and abroad to return home 
after the elections and contribute to the development of the nation. 
Since this was not done, and a paramilitary force dominated by former 
fighters of President Taylor formed instead, thousands of Liberians 
both in the subregion and diverse other parts, refused to return home 
for the 1997 elections, and many have remained abroad since then. Since 
the 1997 elections, thousands of Liberians have again left the country, 
out of fear and insecurity. More recently, there has been additional 
exodus of Liberians into the subregion, as result of the LURD attacks 
in lower Lofa, and Bomi Counties.
    That the enforcement competence of Abuja seized with the 
inauguration of the Taylor Government in 1997 and the reaffirmation of 
the Liberian Constitution by the National legislature, is not legally 
debatable. However, it is necessaly to recognize that the underlying 
objectives of Abuja not having being achieved, and peace and stability 
at home still remaining elusive as a consequence thereof, there is a 
need to implement what all the parties to the Liberian conflict had 
agreed upon under Abuja to create the enabling environment for the 2003 
elections. It is inconceivable to expect opposition politicians living 
abroad, or anyone aspiring to the presidency, including heads of former 
factions, and indeed thousands of Liberians living abroad, to have any 
level of confidence in the existing security institutions established 
by the government, substantial enough to induce them to return to 
Liberia either to mount a meaningful challenge to President Taylor in 
the ensuing elections, or to effectively participate in the electoral 
process, without an overhaul of the security apparatus.
(3) State of Emergency:
    The February 8, 2002 declaration of a state of emergency in Liberia 
by the Government has a chilling effect on Liberia's democratic and 
economic future. Firstly, if the LURD rebel attacks persist, the state 
of emergency declared by the Government will remain in place as long as 
it is necessary to contain the attacks and remove the threat it poses 
to the peace and stability of Liberia. Such a situation will either 
reduce the period available for aspiring politicians to return to 
Liberia and to canvass and participate in the elections, or it may lead 
to the postponement of the 2002 elections. Secondly, the declaration of 
the states of emergency, has occasioned a new wave of violations of 
human rights and other fundamental liberties, especially freedom of 
expression and of the press, thereby undermining democratic values and 
potentially creating a condition of fear and insecurity.
    Government's Action: Over the past few months, the Government has 
made several overtures, and stressed on each occasion that the action 
was demonstrative of its commitment to peace, national reconciliation 
and the holding of a free and fair elections in 2003. Firstly, the 
Government granted a general amnesty to all Liberian opposition leaders 
living abroad and encouraged them to return home to contribute to the 
political process. Secondly, the Government ordered the re-opening of 
the Radio Veritas, a shortwave station, owned and operated by the 
Catholic diocese of Liberia. It also ordered the Star Radio, put in 
place during the 1997 elections, opened so as to facilitate the 
creation of a plain level field during the 2003 elections. Both Radio 
Veritas and Star Radio have been closed for a protracted period as a 
result of allegations that their broadcasts were anti-government. 
Thirdly, the Government released all political prisoners who were 
serving jail sentences without any pre-conditions, and mandated its 
Ministry of Justice to drop charges against those indicted for treason 
or other political offences, including those charged but not yet 
arrested, all without pre-conditions. In addition, the Government has 
resolved to host a national reconciliation conference in June 2003 in 
Monrovia so as to resolve those vexing political issues that pose 
obstacles to national reconciliation peace and stability in Liberia. 
The Government, realizing the linkage between security at home, and 
peace and stability, have also called for international assistance in 
restructuring the national army, the Armed Forces of Liberia.
    Notwithstanding, the Government consistently undermines and negates 
its own progress by engaging in conduct unbecoming of a government 
committed to democracy and respect for the rule of law. The arrest and 
detention of Counsellor Frances Johnson Morris, former Chief Justice of 
the Supreme Court and director of the Catholic Justice and Peace 
Commission, the arrest of Counsellor Tiawon Gongloe, a human rights 
lawyer, the closure of the Analyst newspaper, the summoning of the 
Manager of the Catholic Radio program ``Radio Veritas'' Redgewood 
Rennie, and the confiscation of the stations' cassette of a recorded 
program of an opposition figure, all without due process of law, 
demonstrates the low level of political space and tolerance for 
divergent opinions and viewpoints. These latest conduct have cast a 
dark cloud on the capacity of the Government to even attract a broad 
based participation in the ensuing national reconciliation conference 
scheduled for July, 2002. The Government is yet to address the vexing 
concerns over the egregious and persistent violations of human rights 
in Liberia and the muzzling of human rights and pro democracy 
advocates, and to commit itself to ensuring that such excesses will 
stop; and that those involved are investigated, tried and punished if 
found guilty.
 the dilemma of ordinary liberians and the international response: \7\
---------------------------------------------------------------------------
    \7\ Ibid.
---------------------------------------------------------------------------
    The people of Liberia are in a dilemma. In 1997 after a devastating 
and bloody civil war, they went to the polls, under international 
supervision, and elected Charles Ghangay Taylor as President. Under the 
Constitution of Liberia, power is inherent in the people, and the 
people have the right to change their government whenever their safety 
and happiness requires it. There now seems to be a consensus among most 
Liberians that the best way to exercise this constitutional power is 
through a democratic process by means of the ballot box. That 
opportunity will not come until October 2003, or it may not come at all 
until years after, depending on the Liberian people themselves and the 
position of the international community on Liberia. The dilemma is 
obvious.
    On the one hand, Liberians have a President and a Government that 
they are stuck with for the next eighteen months and perhaps even 
longer in spite of the vexing questions of security, national 
reconciliation, and the lack of resources to address the myriad of 
social and economic problems confronting them; on the other, Liberians 
are faced with a rebel incursions, the consequences of which have 
relegated them to internal and external displacement, suffering and 
deprivation. Still on another front, Liberians are faced with sanctions 
and the resultant effect of reduced bilateral assistance, as a result 
of which post conflict reconstruction and development never took off 
ground. In spite of this dilemma, the international community seems to 
project the view that once sanctions have been imposed on Liberia 
because of the alleged conduct of their president, the fate of the 
Liberian people have become irrelevant and immaterial. As a staffer on 
the House International Relations Subcommittee succinctly put it, ``the 
fate of the ordinary Liberians is linked to the fate of Charles 
Taylor.''
    The isolation of Liberia by the international community is not only 
limited to the trivialization of the plight of the Liberian peoples. It 
has affected Liberia's position in the subregion. In spite of the 
recognized fact that the peace and stability in the Mano River 
subregion is interlinked, and that instability in any one of the three 
countries, has the potential of destabilizing the others, the 
international community has elected to approach the re-establishment of 
peace and security within the subregion from a ``pocket approach'', as 
opposed to a comprehensive approach. Led by Great Britain, the 
international community has become fully engaged in Sierra Leone, and 
under its supervision, successful disarmament, encampment, 
demobilization and reintegration of former fighters have taken place. 
In less than two months the people of Sierra Leone will be going to the 
polls to put into place yet another democratically elected government. 
In Guinea, with a government notorious for its human rights violations 
and anti democratic tendencies, the United States is engaged with the 
training of the national army. Liberia, on the other hand, remains a 
``ten foot pole'', which neither Great Britain nor the United States 
wants to do business with. The international community even seems 
oblivious to efforts by the leaders of the three countries to normalize 
relations and bring peace to the subregion as is evidenced by the 
recent meeting in Rabat, Morocco and by the follow up meetings of their 
respective Ministers of foreign affairs. Considering the porous nature 
of the borders of the Mano River states, the tribal and ethnic 
affiliations, and the immediate past relationships between the warring 
factions operating in these countries, the desirability of turning a 
blind eye on instability in Liberia, and focusing on Sierra Leone and 
Guinea, is at best specious, and remains troubling, for it has the 
potential of unraveling achievements made once the international 
community departs.
                the role of the international community:
    If Liberia is a failed state today, some of the causes emanate from 
actions taken or not taken by the international community at the 
appropriate times or period. Perhaps out of fatigue with the intractile 
peace process under the supervision of ECOWAS during the Liberian civil 
war, those things that would have induced peace and guaranty security 
and security in Liberia were not addressed fully.

          1. There was no effective disarmament, encampment and 
        demobilization in Liberia prior to the 1997 general and 
        presidential elections. Hence there were over 60,000 former 
        combatants, traumatized and poorly integrated into the 
        political and democratic process in Liberia. With no skills, no 
        opportunities, these former combatants are easy targets for 
        recruitment back into the bush either by the Government or by 
        LURD. They also account for substantial percentage of the human 
        rights violations in Liberia.

          2. The international community failed to ensure the 
        implementation of a vital provision of the Abuja agreement 
        calling for the restructuring of the army and the security 
        apparatus, prior to the internationally supervised 1997 
        elections. As a result, the elected Government went ahead and 
        constituted the security apparatus in a manner that they have 
        not created the necessary security environment appreciable 
        enough to induce opposition political leaders, trained 
        technocrats, and diverse groups of Liberians to return home to 
        contribute to the democratization process in Liberia.

          3. The international community has in a way abandoned 
        Liberia. There has been very little international support for 
        Liberia's post conflict reconstruction and development, 
        especially so when the country's infrastructure, economy and 
        institutions were virtually destroyed. Hence the Government the 
        economic and social development agenda of Liberia, such as 
        light, safe drinking water, schools, health care, roads and 
        communication among others remain in shambles even as I speak.

          4. The failure to condemn LURD, or to intercede in the 
        conflict so as to bring about a lasting cease-fire, especially 
        in the face of the massive humanitarian crisis its war efforts 
        is generating in Liberia against a democratically elected 
        government, while at the same time imposing a ban on the 
        importation of arms by the Government to defend itself and the 
        people of Liberia, a constitutional imposed duty.

          5. Lack of U.S. interest and leadership role in Liberia. The 
        insistence on a policy of containment, believing that with 
        increasing sanctions and international isolation, there will be 
        a change in Liberia has not achieved the desired results. This 
        policy trivializes the impact of containment on the plight of 
        ordinary Liberians, and links the fate of ordinary to that of 
        the Government.
                            recommendations:
    There are some key initiatives that can dramatically turn around 
the trend of events in Liberia and put it on a path toward 
democratization and sustained peace.

    1. The Government of the United States must not rely solely on the 
policy of ``containment and increasing isolation of Liberia'' as the 
only avenue toward bringing change in the political direction of the 
Country. Secondly, efforts at bringing durable peace, stability and 
security in Liberia cannot be left to ECOWAS entirely. Growing out of 
our experiences with ECOWAS intervention in the Liberia civil war, 
regional politics combined with tribal and ethnic affiliations, will 
continue to have negative impact and effectively undermine actions by 
ECOWAS.
    Accordingly, we recommend that the United States Government take a 
leadership role in Liberia, just as the British did in Sierra Leone, 
and help evolve a process that will bring Liberia back to a course of 
democratization.

    2. The first step in evolving such a process is to help create the 
enabling environment in Liberia for security, stability, and sustained 
peace. There are several elements in this step:

          a. The United States must take a leadership role in creating 
        a ``contact group'' as suggested by the International Crisis 
        Group (ICG) and Human Rights Watch to supervise this process.

          b. The contact group, once created, should call upon the 
        Government and LURD to declare an immediate cease-fire, and 
        enter into immediate dialogue or negotiations with the view of 
        resolving the conflict. These discussions must include 
        representation from political both at home and from abroad. We 
        urge the international community to deploy an intervention 
        force into Liberia, if the Government and LURD or either of 
        them, refuse to adhere to this call.

          c. One of the crucial agenda items for discussions on Liberia 
        by the contact group is the issue of security. There will be no 
        lasting peace in Liberia if the security apparatus of the 
        Government is not dismantled. Hence the contact group must 
        obtain consensus from all parties to deploy an international 
        force on the ground in Liberia, with a mandate to:

            <bullet> monitor the cease-fire;

            <bullet> take over the entire security apparatus of the 
        country;

            <bullet> disarm all combatants including the Police, the 
        Army, the ATU and other security apparatus.

        The composition of the force must not be limited to ECOWAS, and 
        the state of emergency imposed by the Government must be lifted 
        upon arrival of the intervention force.

          d. The question of governance and the status of democratic 
        institutions in Liberia between now and the period of general 
        elections must be discussed. These include the Elections 
        Commission, the Judiciary, the prosecutorial arm of Government, 
        and the control over the nations resources and finances.

          e. Finally the contact group must visit the question of the 
        General and Presidential elections and obtain a consensus on 
        such crucial hurdles such as census, representation, and number 
        of constituencies, and provide resources to facilitate the 
        process.

    3. The United States Government must strengthen civil society in 
Liberia to enable them make informed and reasoned decisions about the 
democratization process in Liberia. Crucial areas are support for the 
press, human rights institutions and advocates, and other pro democracy 
organizations. We recommend support for these organizations as well as 
the strengthening of political parties, and the re-activation of the 
Human Rights Commission.
    Thank you.

    Senator Feingold. Thank you for your well-informed, candid 
testimony. I thank all of you, and I will have some questions 
now, starting with Ms. Nowrojee. Your testimony notes the 
recent proliferation of militia forces in Liberia with 
relationships to the ruling party. What might be the motive for 
privatizing some of the state's use of force? Does the 
Government of Liberia want to disassociate itself from some 
policies that it still finds expedient, and what are some of 
the human rights consequences of this?
    Ms. Nowrojee. I think it is a combination of a number of 
things. I think first of all the militia groups are being 
headed by very trusted former NPFL, former Charles Taylor rebel 
affiliates who are now businessmen, or they are not 
particularly in government, and so they are being called up to 
organize the boys that were under them previously.
    Another thing is, I think that since the sanctions have 
come into effect the Taylor government's revenues have been 
squeezed because they no longer have access to Sierra Leonian 
diamonds, so if you proliferate your formal armed forces you 
have to pay them, and even that he is not currently doing, so 
what is being done now is basically giving militia groups a 
green light to basically loot and support themselves.
    We interviewed three former child soldiers who were under 
training just outside of Monrovia who were going to be 
redeployed to the field, and they were basically being given 
$250 cash as a sign-up, and then what they looted was theirs to 
keep, and that seems to be the terms of the agreement, whereas 
if you enroll them in the armed forces you have to do a little 
more than that.
    Senator Feingold. And in terms of the human rights 
consequences?
    Ms. Nowrojee. The human rights consequences are extremely 
detrimental for a number of reasons. First of all, a lot of 
these are former child soldiers who have a history of 
committing atrocities from the war. They are also receiving 
little training. There is also no accountability for their 
actions, and there is no ability for civilians to lodge 
complaints or to file any mechanism to actually keep them in 
check, so it is very dangerous, and then above and beyond that, 
they are so shadowy it is close to impossible--we tried to get 
a sense of what the military command was, or if there was any 
coordination or cooperation. It is much harder for human rights 
groups to get a handle on the military structure.
    Senator Feingold. Fair enough. For you as well as for Mr. 
Sannoh, what role should accountability for human rights abuses 
play in Liberia's political future? You addressed some of this, 
but I am wondering, is the issue prominent in discussion among 
members of civil society and the political opposition? Do you 
expect that average Liberians will demand some degree of 
justice and accountability in a post conflict democratically 
governed Liberia?
    I will start with you Ms. Nowrojee.
    Ms. Nowrojee. I think most Liberians unfortunately are busy 
with the day-to-day struggles of survival, so you do not see an 
overwhelming call for accountability, but clearly the lack of 
justice is on people's minds. It does not take long being in 
Liberia to just see how people's hopes have been whittled away, 
people who have been refugees once, who have come back, have 
rebuilt their houses, been chased away again, so justice would 
be a very welcome thing.
    On the other hand, it is not something, a rallying point 
around which the society is crying for. However, I think it is 
the key to beginning to put a check on the cycle of violence we 
are seeing repeating itself again and again. I see this special 
court for Sierra Leone as being a very important actor now in 
beginning to provide an out for the sort of checkmate that we 
are in now, because I do not hold out much hope for the 
elections.
    I hope what happens in the next election is not what 
happened in the last elections, where the international 
community descends on the place in large numbers, observes a 
quote-unquote fair and free election because there is no 
ballot-stuffing, but does not take into consideration the 
context within which such an election is being held, so I do 
not hold out much hope for the next election.
    I do not hold out much hope for LURD offering any future 
that is any different, if you look at some of the characters 
that are in LURD, particularly, for instance, somebody like 
Charles Julu, who was the commander-in-chief of the armed 
forces under the Doe administration. You see a history of equal 
atrocities, you know, people with checkered records on either 
side.
    The special court provides an out, because if there is an 
indictment for Liberian officials who have played a detrimental 
role in Sierra Leone, you can, through the rule of law and 
through an international institution, begin to remove some of 
those faces and create a space for the opposition, which is 
currently divided and very cowed, to begin to move in, and that 
might be the beginning of a brighter future.
    Senator Feingold. I appreciate what you said about the 
special court in Sierra Leone. I have devoted a fair amount of 
effort to urging it along both in terms of what it would mean 
with regard to Sierra Leone, but also some of the things you 
are talking about, the larger accountability, and I appreciate 
that very much.
    Mr. Sannoh, would you like to comment on that issue?
    Mr. Sannoh. Yes, Mr. Chairman. It would be an 
understatement to say that the Liberian people are not as 
active as they should be in the process of democratization. 
Those who observed the process in Liberia, especially up to the 
elections, there was a high level of civil society involvement 
in the process in Liberia. Since 1997 there has been a decrease 
in the level of civil society activity, and some of this 
decrease has been attributed to fear, intimidation, arrest of 
human rights advocates. We had up to 14 human rights 
organizations operating in Liberia up to the elections. After 
the elections, it has come down to about three or four human 
rights organizations working on the ground.
    Now, on the issue of accountability, that was a position 
that was disclosed immediately after the elections. When the 
Liberian Human Rights Commission was constituted, one of the 
questions we had faced, because I happened to have come up with 
an original draft of that particular provision, one of our 
concerns was, where do we go from here?
    Do we go back and begin to review all of the atrocities 
that are being committed and give that responsibility to this 
Human Rights Commission, or shall we establish a Human Rights 
Commission and give it a mandate so that it can move forward 
from today, and not to be bogged down with what happened in the 
past, and let the political decisions be made as to what 
Liberia is going to do with the atrocities that have been 
committed in Liberia?
    Mr. Chairman, the problem here is, if President Taylor had 
not emerged in the 1997 elections, then the issue of 
accountability would have been on the fore of the agenda in 
Liberia, but because Taylor led a rebel group, along with 
several other groups in Liberia, there have been no incentive 
for a government that had a rebel group imagined as winning the 
elections to spearhead a process of accountability, and the 
international community has not pressed on that issue, so that 
is a problem of accountability. It is like throwing it under 
the rock, and we are faced with that.
    That still remains under the rock, but the Liberian people 
are yearning for peace, they are yearning for democracy, and 
that is why we keep stressing the call to empower the civil 
society so that Liberians can be well-informed to make good 
decisions about their own country.
    Senator Feingold. Let me follow that with a couple of 
questions for you, Mr. Sannoh, about the elections. There is 
some skepticism or some pessimism expressed here about the next 
round of elections. I think Ms. Nowrojee just suggested that. 
How would you assess the current pre-election climate in 
Liberia? Is there any chance at all of a reasonably free and 
fair election in 2003? For example, do you think citizens will 
have regular access to independent sources of information? Any 
comments?
    Mr. Sannoh. In my presentation I identified one of the key 
issues to having elections in 2003, and that is the issue of 
security. If we do not establish the enabling environment in 
Liberia, then of course the road to 2003 is going to remain 
bumpy. There is a state of emergency in place, and the more we 
go into the period for elections from now until 2003 is about a 
year and some few months. There has to be adequate time for 
political parties to regroup, to converse in Liberia. Many of 
these political parties are outside Liberia, the leaders are 
outside Liberia. They cannot come back to Liberia because of 
the security situation.
    Now, if we get up one morning and we say, well, let us go 
to elections tomorrow, and we do not have the participation of 
those political parties or leaders who are in exile because 
they cannot go back to Liberia as a result of the security 
situation, then you are going to have a problem, and that is 
why I keep stressing on, if we want to proceed with the process 
of democratization in Liberia, the first step should be to 
ensure that an enabling environment is created, that we induce 
Liberians to go back home and participate in the process.
    Senator Feingold. I think that answer is closely related to 
my next question, which was to be, what is to stop a repeat of 
the election scenario from 1997? I am told that many Liberians 
felt their choice was to vote for Mr. Taylor or endure more 
conflict. Would you talk about security? Are you really saying 
that there is still a fear of the consequences that might 
follow should President Taylor fail to win reelection?
    Mr. Sannoh. Assuming Mr. Taylor remains as President up to 
elections, and elections are conducted and he loses the 
election, if the security apparatus remains as it is, I cannot 
predict what would happen, but I do not see it as a beautiful 
situation.
    If you have an international force on the ground and Taylor 
loses the election, it is more likely that he would abide by 
the results, and when you talk about in 1997 elections, I have 
heard people say that if we have elections tomorrow Taylor 
would win, that may be true, but as the State Department 
representative testified, when the Liberian people went to the 
polls in 1997 it was immediately after the war. As a matter of 
fact, in many, many areas there were still rebels roaming 
through the villages and everything, and so these people voted 
for peace.
    It is true, Taylor won the elections. It was a free 
election, Taylor won the elections, but there is no guarantee--
I cannot say that if elections are held in Liberia tomorrow, in 
light of all of the problems that the country has been through, 
in light of the fact that many Liberians are beginning to 
believe that the problems they are having is because of Mr. 
Taylor, that the results would be the same.
    As to what is required to make the process happen, to make 
it free and fair so that Liberians can make a decision for 
themselves as to who they are going to vote for, eventually it 
has to be left to the Liberian people to decide who they want 
to be their President.
    Senator Feingold. The way this is usually presented to me 
is that Mr. Taylor won in the previous election because people 
were afraid that if he did not win, that terrible things would 
be done to them by Mr. Taylor. Is that accurate history?
    Mr. Sannoh. Well, let me just go back. If you have followed 
the Liberian situation, in 1996 there was a civil disturbance 
in Liberia because of problems that came out of the Abuja 
agreements. Prior to that, Liberia was divided, fractionalized 
among the various factions, and each of these factions had 
territories that they were controlling. With the composition of 
the LNTG, all of these areas, many of the warring factions or 
rebels deserted these areas.
    As a result of the April 1996 crisis, when the fighting was 
going on in Liberia, Taylor went around and tried to recapture, 
to have his forces in most of the areas he had lost. Now, there 
was a fear that if elections did not proceed and another round 
of fighting ensued in Liberia, Taylor would have been at a 
better footing in that process, and so during the course of the 
elections and again, from their own experience, when people say 
they were afraid that if Taylor does not win the election he 
will go right back to fighting, that is why we have fears. That 
is why we have fears. We cannot say it is imaginary.
    Second, most people believe that if we can see this young 
man to launch in Liberia and fight for several years, he must 
have an agenda for Liberia, so perhaps let us give him an 
opportunity to see what he can do.
    Now that the Liberian people have seen what he has done, 
that is why we say, let them be the determinants of their own 
future, whether they are actually going to vote for Mr. Taylor 
the second time around, but the 2003 elections will be entirely 
different elections from 1997 if the process is free and fair 
and it is given the type of international support and money 
that it needs.
    Senator Feingold. Thank you for that interesting answer. 
Let me go to Ms. Anderson. I recently read about the 
destruction of a hospital in Bong County, a casualty of 
fighting between the Liberian Armed Forces and the LURD. In 
this kind of situation, or in this situation, are humanitarian 
and civilian institutions like hospitals and schools being 
targeted in the conflict, or is this kind of a circumstance 
more incidental, a consequence of what happened?
    Ms. Anderson. I would probably say a combination of the 
two. As my other colleagues alluded to, oftentimes fighters are 
able to sort of pick out portions of the country to loot and to 
raid, so that means including the looting and raiding hospitals 
for medical supplies and also storehouses for food. So yes, 
sometimes, hospitals and other humanitarian sites including and 
especially food warehouses can be targeted.
    We ourselves have experienced, at different times, attacks 
on our own facilities, particularly our agriculture sites, and 
our food warehouses. But oftentimes a lot of this is often a 
casualty of just cross-fire, and so what happens usually is 
that somebody hears a shot--or you hear a lot of skirmishes 
perhaps 10 miles away--you immediately evacuate and clear out 
your staff and as much equipment and supplies as possible. But 
human beings are more important than commodities. Usually, what 
happens is that people leave, and then the supplies the 
soldiers would like are right there ready for them, so it is a 
combination of the two.
    Senator Feingold. Again for you, what role does the 
Liberian Refugees Repatriation and Resettlement Commission play 
in caring for the internally displaced in Liberia? It is a 
politicized organization? Is the information accurate, and does 
it act in the interest of the displaced, or in the interest of 
the government?
    Ms. Anderson. The LRRRC we have found has been a very 
cooperative and collaborative partner in Liberia. I met with 
several of those officials myself, and found that they were 
members of the government who had a genuine and sincere concern 
for the people of Liberia. They also were not in the inner 
circle of Charles Taylor as well. Nevertheless, their hands are 
tied because of declining international assistance to them.
    When I had visited Liberia a couple of months back that, 
some international officials claimed that their numbers were 
inflated, but what I found most often when I talked with a 
variety of international officials was that nobody really 
wanted to admit the severity of the displacement and the 
severity of the crisis because of the lack of international 
political will, so LRRRC might have high numbers, but the 
numbers are really not necessarily that far off.
    Again, they were genuinely, sincerely concerned about the 
plight of the Liberian people because they themselves were 
suffering. The majority of the civil servants in Liberia have 
not been paid for the past 14 months, and that is a report I 
got recently from our national director. As of yesterday they 
have not been paid, so they themselves are suffering.
    And again, LRRRC, they were sincerely and genuinely 
supportive in trying to work with NGOs to coordinate assistance 
that was going throughout Liberia. Nevertheless, instability as 
well as declining international assistance has made it 
difficult.
    Senator Feingold. I appreciate all of your patience. I just 
want to ask one final question for whichever of you would like 
to answer, and we have already talked about, and I appreciate 
your candor with regard to the fact that some of you feel that 
certainly the American efforts with regard to supporting civil 
society are not adequate at this point, and I suspect that is 
true.
    And so often when we examine states with truly abusive and 
corrupt governments, we have to pin our hopes on civil society 
as we search for partners in an effort to improve conditions 
for civilians and strengthen institutions and bolster the rule 
of law. But this requires a civil society capable of working 
together, rather than one that is full of opposing camps that 
are just competing for power. So I guess I would like you to 
comment on how politicized the Liberian civil society is in its 
current state.
    Mr. Sannoh. Let me start. Let me just say something briefly 
about even the present level of assistance. The U.S. policy is 
right now, instead of providing assistance directly to the 
government, they would like to do it through UCIT. UCIT is on 
the ground. UCIT has a policy where they cannot deal directly 
with local NGOs on the ground. They would like to use 
international NGOs as implementing partners.
    Now, when you come to the issue of civil society and the 
process of democratization in Liberia, there is no 
international NGO on the ground in Liberia. NGI was there and 
they left. AFROS was there for the elections. They left. So in 
other words, if UCIT has money for civil society development 
and democratization, then the money sits down, and last year 
alone UCIT was left with about $574,000 that would have been 
used for civil society development that was never implemented, 
so that is a problem that really supersedes the issue of 
politicization of the civil society, and again, perhaps the 
problem is the lack of inertia because of the political stance 
of the United States toward Liberia.
    Perhaps those overtures are extending to UCIT so that UCIT 
is factoring a political position in determining how to proceed 
with the civil society movement or development, and also the 
lack of interest in international NGOs, those involving 
democracy, to go back to Liberia and begin to work.
    Now, on the issue of politics between NGOs, nongovernmental 
organizations on the ground in Liberia, that is not really a 
factor in Liberia. There has been a lot of collaboration among 
the various NGOs. There is collaboration within the human 
rights community. We have the human rights center all of the 
human rights organizations are a part of, even though we 
operate individual organizations, but when it comes to major 
issues there is a high level of collaboration on that, as 
collaboration on the level of religious groups, the Interfaith 
Mediation Committee. They have been very, very active for peace 
in Liberia. They have been involved in reconciliation efforts, 
so these institutions are there, they just need to be 
empowered.
    You look at the press, we have a very powerful press union. 
The only problem they have is that a couple of times the press 
is closed and thrown into jail and somebody needs to stand up 
there to give them a type of moral support and assistance.
    So the question of politics and the internal wrangling 
between the NGOs is not a problem in Liberia in my own view.
    Ms. Anderson. I might also just add, in terms of the 
comment on NGOs, both international NGOs, of which World Vision 
is one, as well as local NGOs, I think that if you do increase 
humanitarian assistance, electoral NGOs like NDI will go. They 
will go, but what we are finding is that you have diminishing 
amounts of money actually being channeled toward democracy and 
governance, so therefore NGOs cannot necessarily make their 
costs, both their own internal costs and being able to work and 
facilitate civil society organizations on the ground, and then 
it is very difficult to run an operation there.
    So we ourselves are finding from a humanitarian standpoint 
that it is very difficult to run an operation when you are only 
given a limited amount of funds, so you eventually do have to 
fold up and leave, and because of the declining U.S. Government 
assistance, particularly in democratization and governance--I 
talked with aid officials whilst I was in Liberia. They 
basically said, well, there is no free press so we cannot 
really sponsor press unions, and I found when I interviewed and 
talked with journalists while I was there that people were 
willing to put their lives on the line, but they were not being 
supported, so it is sort of a chicken and egg. Do you provide 
the funding or not?
    I would say you provide the funding and the international 
NGOs as well as local Liberian NGOs will step up to the plate, 
because I also found that people were very united, because the 
suffering is universal.
    Ms. Nowrojee. I would just add to that and say that the 
types of support should not only be financial. I mean, I think 
the civil society groups range from sort of very sort of 
nascent and emerging groups, the few corrupt groups, and then 
some excellent and really active work going on, and what some 
of these Liberian groups lack in terms of experience or 
exposure, they make up for in courage and bravery, and I am 
always amazed at how much they are willing to take in terms of 
being tossed into prison, being interrogated, being tortured, 
being forced to flee the country, and they continue.
    These human rights groups basically started around the time 
of the war, and it is interesting in the safe haven created by 
the West African peacekeepers in that regard, Dave Peterson 
from National Endowment for Democracy is a real unsung hero in 
this, because he took a chance on a lot of these people at a 
time when nobody really knew who they were, what they were 
doing, and what has emerged now is a really vibrant community 
of human rights activists and independent media people.
    And I think that when we talk about greater support for 
civil society, it should not only be financial. It is not just 
an issue of money. It is also an issue of providing them with 
protection, providing them with exposure, providing them with 
protection, the whole idea of providing them with radios, 
access to the public to be able to hear their message. It 
should be multifaceted, and then it will sift out, the sort of 
genuine and very active ones will come to the fore, and others 
will sift down.
    Senator Feingold. Thank you. I want to thank all of you for 
your help today. Liberia was the first African country that I 
ever visited in 1994, when I was a new member of this 
subcommittee, with Chairman Paul Simon, and it was a difficult 
situation then. Obviously it is very difficult now, but the 
purpose of these hearings, when we refer to certain countries 
as failed states, or weak states, is not to suggest that that 
is their permanent status.
    In fact, I believe it would be an immoral policy for this 
country to regard any nation, particularly an old friend of the 
United States like Liberia, as a permanently failed state. The 
purpose of that kind of a label and the purpose of these 
hearings is to awaken Members of Congress and policymakers to 
the fact that to allow such situations to persist is not only 
immoral but dangerous for the United States, and I believe we 
have seen some of that in our analysis of what happened on 
September 11, and so that is the purpose of these hearings, and 
I think this was an extremely good one, and I assure you that 
as long as I am a member of this subcommittee, certainly, 
whether as chairman or otherwise, I will continue to want to 
work with each of you on the future of Liberia, and I 
congratulate you on your efforts.
    This concludes the hearing.
    [Whereupon, at 4:25 p.m., the subcommittee adjourned, to 
reconvene subject to the call of the Chair]

                                   - 

</pre></body></html>
